<html>
<title> - HEARING ON FEE DEMONSTRATION PROGRAMS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     HEARING ON FEE DEMONSTRATION PROGRAMS--SUCCESSES AND FAILURES

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                   FEBRUARY 26, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-73

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
47-404                      WASHINGTON : 1998



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas

                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 26, 1998...................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................    10
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California, prepared statement of.............   153
    Regula, Hon. Ralph, a Representative in Congress from the 
      State of Ohio..............................................     4
        Prepared statement of....................................     5
    Smith, Hon. Robert F. (Bob), a Representative in Congress 
      from the State of Oregon...................................    62

Statements of witnesses:
    Bachrach, John Christopher, Treasurer and Board Member, Grand 
      Canyon Private Boaters Association.........................    41
        Prepared statement of....................................    60
    Berry, John M., Assistant Secretary, Policy Management and 
      Budget, Department of the Interior; accompanied by Henry 
      Rodger Schmitt, Group Manager, Recreation Group, Bureau of 
      Land Management............................................    11
        Prepared statement of Mr. Berry..........................    49
    Coyne, Alasdair, Conservation Director, Keep the Sespe Wild..    46
        Prepared statement of....................................    96
    Crandall, Derrick, President, American Recreation Coalition..    25
        Prepared statement of....................................    63
    Dingman, Robert, American Motorcyclist Association, 
      Washington, DC.............................................    44
        Prepared statement of....................................    91
    Fretwell, Holly, Research Associate, Political Economy 
      Research Center............................................    39
        Prepared statement of....................................    87
    Johnson, Myrna, Director of Government Affairs, Outdoor 
      Recreation Coalition of America, prepared statement of.....   143
    Laverty, Lyle, Former Director, Recreation Programs, Regional 
      Forester, Rocky Mountain Region, U.S. Forest Service; 
      accompanied by Greg Super, National Recreation Fee 
      Demonstration Program Coordinator, U.S. Forest Service; 
      Linda Feldman and Floyd Thompson...........................    15
        Prepared statement of Mr. Laverty........................    51
    Mackey, Craig, Public Policy Liaison, Outward Bound..........    36
        Prepared statement of....................................    76
    Santini, James D., Washington DC Representative, National 
      Tour Association and former Member of Congress.............    34
        Prepared statement of....................................    69
    Sloan, Mary Margaret, Conservation Director, American Hiking 
      Society....................................................    37
        Prepared statement of....................................    83
    Stavely, Gaylord, Vice President, National Forest Recreation 
      Association................................................    32
        Prepared statement of....................................    57
    Voorhees, Philip David, Associate Director of Policy and 
      Development, National Parks and Conservation Area..........    29
        Prepared statement of....................................    54

Additional material supplied:
    Andersen, Heide, Conservation Director, Colorado Mountain 
      Club, prepared statement of................................   148
    Colby, Wendy, Bend, Oregon, prepared statement of............   147
    Neubauer, Dale, Bend, Oregon, prepared statement of..........   155
    Spohn, Isabell, Twisp, Washington, prepared statement of.....   160
    U.S. Dept. of the Interior and the Dept. of Agriculture, 
      ``Recreational Fee Demonstration Program''.................   100
    Vaughan, Ray, Executive Director, Wildlaw, Montgomery, 
      Alabama....................................................   156
    Waldheim, Edward H., President, Calfornia Off Road Vehicle 
      Assoc., Glendale California................................   158


     HEARING ON FEE DEMONSTRATION PROGRAMS--SUCCESSES AND FAILURES

                              ----------                              


                      THURSDAY, FEBRUARY 26, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 132, Longworth House Office Building, Hon. James V. Hansen 
(chairman of the Subcommittee) presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] I've scheduled this hearing today 
to continue the longstanding involvement of the members of this 
Subcommittee in examining the issues of recreation fees on 
Federal lands.
    As many of you are aware, this Subcommittee held several 
hearings on recreation fee proposals during the first session 
of the 10th Congress. Several members of the Subcommittee and 
several of the witnesses today will have fond memories of our 
discussion during 1995. However, today we will review the 
successes and failures of the recreational fee demonstration 
program that the Congress authorized in the Omnibus 
Consolidation Rescissions Act of 1996 and amended in subsequent 
legislation during fiscal year 1997 and fiscal year 1998.
    Currently, this recreational fee demonstration program 
authorizes the National Park Service, U.S. Fish and Wildlife 
Service, and Bureau of Land Management, and the Forest Service 
to establish fee collection programs at up to 100 sites for 
each agency. The fee demonstration program allows these 
agencies to retain 80 percent of the fee at the collecting 
unit, and the remaining 20 percent is available to the 
collecting agency at management discretion.
    The agencies are collecting a variety of entrance and user 
fees to test the feasibility of user-generated cost recovery 
for operation and maintenance costs, and to address the backlog 
repair and maintenance of infrastructure. The fees are also 
being used for interpretation, facility enhancement, and 
resource management projects. However, I am concerned that some 
fees are being spent on items that do not fit within these 
areas.
    I am pleased to note that, generally, public awareness and 
acceptance of the fee demonstration program has been positive. 
I have long held the view that if the fees are fair and 
reasonable, and the funds are retained at the site to enhance 
the visitor experience, that the American public will support a 
fee program. However, we will hear testimony today that will 
show that not all of the public is totally convinced of the 
rationale for charging cost-recovery fees on the public lands.
    This hearing will serve to provide necessary information 
for this Subcommittee to consider legislation that would 
provide permanent authorization for the recreational fee 
demonstration program under the Land and Water Conservation Act 
of 1965. I believe that the recreational fee program is the 
most fair and realistic way to address the backlog problems of 
the Federal land used by the American people. I fully realize 
there's some problems with the current recreation fee program; 
however, this hearing will help us to make decisions that will 
correct these deficiencies, explain this program to the public, 
and enhance outdoor recreation experiences for everyone. I look 
forward to the testimony we will receive today, and appreciate 
the efforts of all of you to be present and express your views 
on this important program.
    I hope you folks realize there's a dozen hearings going on 
all over the Hill, most of them on CIA and Iraq and things such 
as that, so it's, I don't know why, but anyway you will see 
members dribble in and out, and I apologize that not everyone's 
here right now, but I've been assured that many will come. 
Normally, at usual congressional time, which is twenty minutes 
after we start.
    With that in mind, I am very happy to recognize, I'd 
recognize the gentlelady, but I don't know if she wants to be 
recognized right now. I'll then turn to--see, I told you they'd 
all start coming. We'll start then with the Honorable Wally 
Herger, the gentleman from California who works so diligently 
on these programs. It's always a pleasure to have you, Mr. 
Herger. We'll turn the time to you, sir.

 STATEMENT OF HON. WALLY HERGER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Herger. Thank you very much, Mr. Chairman, and I do 
appreciate the opportunity to speak today regarding the fee 
demonstration program currently being implemented by our 
National Park Service and our United States Forest Service. I 
represent all or part of nine national forests, and one 
national park, and one national recreation area. The fee 
demonstration program is severely impacting the people of my 
district. I am strongly opposed to any extension or 
continuation of this program for three main reasons.
    First, this program is another unnecessary tax on families 
who are already overburdened by taxes. Second, the fee program 
places additional burden on recreational access and as a result 
is highly detrimental to local economies, such as mine in 
Northern California, which are dependent on tourism and 
recreation. And third, this fee program only perpetuates misuse 
of existing funding and natural resources by land management 
agencies.
    First issue of the tax burden. In 1997, Federal, State, and 
local taxes combined are projected to claim 38.2 percent of the 
median income of two-earner families--up from 37.3 percent in 
1996. This means families are now taxed at a level higher than 
any other time in our Nation's history, excluding the years of 
1944 and 1945, during World War II. Imposing an additional tax 
burden in the form of fees on the already overburdened American 
family is considered unconscionable.
    One unintended and unfortunate result of this tax is that 
the average American family may no longer be able to afford a 
visit to our national parks and forests. Families who once 
simply drove through these areas now have an added financial 
burden. The impact of fewer citizens visiting our National 
parks and forests would negatively impact local economies. 
Imposing fees is not the answer.
    At the heart of this issues are Federal agencies that have 
mismanaged their funding. These agencies claim significant 
backlogs in maintenance and upkeep for basic services, while 
continuing to receive annual appropriations that are not 
adequately accounted for. For example, according to a report by 
the General Accounting Office and the Department of Interior's 
Inspector General, the National Park Service lacks (1) 
necessary financial and program data on its operations; (2) 
adequate internal controls on how its funds are spent; and (3) 
that the agency lacks performance measures on what is being 
accomplished with the money being spent.
    Mr. Chairman, our Nation's recreational needs will not be 
met by throwing more money into the Federal Government's 
insatiable hands. Before we give the National Park Service or 
the United States Forest Service a permanent, revenue-
generating program such as the fee demonstration program, we 
should require a proper accounting for the resources already at 
their disposal.
    In closing, Mr. Chairman, from my firsthand experience, 
this program is not working. There has been a substantial 
amount of animosity generated by local communities who have had 
to deal with implementation of this program. This ill-conceived 
program needs to be discontinued. Again, I want to thank the 
Subcommittee for hearing my testimony, and I request that when 
this Subcommittee takes up any action on this issue, it will 
consider the negative impact suffered by local communities such 
as mine. Thank you.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Mr. Chairman, members of the Subcommittee, I would like to 
thank you for the opportunity to speak today regarding the fee 
demonstration program currently being implemented by our 
National Park Service and our United States Forest Service. I 
represent all or part of nine national forests, one national 
park, and one national recreation area. The fee demonstration 
program is severely impacting the people of my district. I am 
strongly opposed to any extension or continuation of this 
program for three main reasons: first this program is another, 
unnecessary tax on families who are already over-burdened by 
taxes; second the fee program places additional burdens on 
recreational access and as a result is highly detrimental to 
local economies, such as mine in northern California, which are 
dependent on tourism and recreation; and third, this fee 
program only perpetuates misuse of existing funding and natural 
resources by land management agencies.
    First the issue of the tax burden. In 1997 Federal, state 
and local taxes combined are projected to claim 38.2 percent of 
the median income two-earner family, up from 37.3 percent in 
1996. This means families are now taxed at a level higher than 
any other time in our history, excluding the years of 1944 and 
1945 during World War II. Imposing an additional tax burden in 
the form of fees on the already overburdened American family is 
considered unconscionable. One unintended and unfortunate 
result of this tax is that the average American family may no 
longer be able to afford a visit to our national parks and 
forests. Families who once simply drove through these areas, 
now have an added financial burden. The impact of fewer 
citizens visiting our national parks and forests would 
negatively impact local economies.
    Imposing fees is not the answer. At the heart of this issue 
are Federal agencies that have mismanaged their funding. These 
agencies claim significant backlogs in maintenance and upkeep 
for basic services while continuing to receive annual 
appropriations that are not adequately accounted for. For 
example, according to a report by the General Accounting Office 
and the Department of the Interior's Inspector General, the 
National Park Service lacks: 1. necessary financial and program 
data on its operations; 2. adequate internal controls on how 
its funds are spent; and 3. that the agency lacks performance 
measures on what is being accomplished with the money being 
spent.
    Mr. Chairman, our nation's recreational needs will not be 
met by throwing more money into the Federal Government's 
insatiable hands. Before we give the National Park Service or 
the United States Forest Service a permanent revenue generating 
program such as the fee demonstration program we should require 
a proper accounting for the resources already at their 
disposal.
    In closing, Mr. Chairman, from my first hand experience 
this program is not working. There has been a substantial 
amount of animosity generated by local communities who have had 
to deal with implementation of this program. This ill conceived 
program needs to be discontinued. Again I want to thank the 
Subcommittee for hearing my testimony and I request that when 
this Subcommittee takes up any action on this issue it will 
consider the negative impact suffered by local communities. 
Thank you.

    Mr. Hansen. Thank you, Mr. Herger. We appreciate you being 
with us, and if you stay with us just a minute, we may have 
some questions for you.
    Let me state that we're very pleased to have Ralph Regula, 
the chairman of the Appropriations Committee of Interior with 
us. It's always a pleasure to have Ralph with us. We work very 
closely on matters pertaining to public lands, Interior issues. 
I'll turn to Mr. Regula for any statement he may have.

 STATEMENT OF HON. RALPH REGULA, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Regula. Thank you, Mr. Chairman. I don't have a formal 
statement, but I want to re-emphasize what Congressman Wally 
Herger said about accountability, and we've built that into the 
pilot programs. Accountability for the money that's collected 
and accountability for the management. This was instituted as 
part of our Appropriations Committee, as a demonstration as to 
what could be done. Not all units are using the fee program, 
but I will say that in talking with people that have both 
experienced paying the relatively small fees, as well as the 
superintendents and managers of our recreation systems in the 
parks, forests, and Fish and Wildlife Service, and BLM, that I 
get very positive reaction. A little footnote to it is that 
they find that vandalism is down, lessened because people, when 
they pay a little bit, have a stake in the facility. Visitation 
is up, so I don't believe people are being restricted in usage.
    I know that the parks have worked out an arrangement for 
local folks that are in and out for various reasons, working 
there, or delivering materials, that they don't pay, they get a 
sticker. This is a pilot, or an experimental program, and the 
effort is being made to get the bugs out of it and make it work 
well. And we've made it clear in the appropriations process 
that we don't see this as a substitute for annual 
appropriations, but rather as a supplement to deal with the 
maintenance backlog. For example, I believe in Yellowstone, 
they're going to use some of their money to replace the sewer 
system, along with what we appropriate, to enhance the visitor 
experience by doing things that they normally couldn't do. And 
there is a high level of enthusiasm on the part of the 
managers, simply because of what they are able to do.
    As I say, it's not a substitute for the appropriations 
process, and I think that the way it's being worked in the 
various parks and forests now demonstrates that there is merit 
to a program of this type. I commend you, Mr. Chairman, for 
having a hearing and looking at this program and the pluses and 
minuses of what we've experienced in the past 2 years under the 
program to see what should be done, if anything, on a permanent 
basis. Because I think it does have a potential for giving 
people a sense of participation in the park responsibilities, 
as well as providing some additional funds to substantially 
enhance the visitor experience. And I believe there are a lot 
of pluses to it based on my conversations with people as I 
visit parks, and with the superintendents or the managers. 
There's a pretty positive reaction, all up and down the line. 
And I'm as interested in your comments, Mr. Herger. I think 
probably some of those concerns would be addressed in permanent 
legislation. And I thank you, Mr. Chairman.
    [The prepared statement of Mr. Regula follows:]

The Hon. Ralph Regula,
Chairman, Subcommittee on Interior
  and Related Agencies,
Committee on Appropriations,
House of Representatives,
Washington, DC.
    Dear Mr. Chairman:
    On behalf of the Departments of the Interior and Agriculture, we 
express our appreciation for the opportunity to improve our recreation 
resources through the Recreational Fee Demonstration Program authorized 
by section 315 of the fiscal year 1996 Interior and Related Agencies 
Appropriations Act. Attached is a joint progress report on the status 
of the program, submitted by the Departments of the Interior and 
Agriculture on behalf of the National Park Service, Fish and Wildlife 
Service, Bureau of Land Management, and Forest Service. This report 
summarizes the most recent information on visitation, revenues, and 
management issues that have arisen during initial implementation of the 
Recreational Fee Demonstration Program.
    We are pleased to inform you that visitor response to the new fees 
has been generally positive. We increased revenues substantially during 
the first year, and began the long process of reducing our maintenance 
backlogs. The program represents a significant step toward improving 
visitor services and facilities for those who recreate on public lands.
    The agencies agree that long-term implementation of this effort is 
desirable. We will work with Congress to design a program that builds 
upon our positive experience in implementing the demonstration effort. 
Such a program should provide flexibility for designing fees tailored 
to specific situations, embody strong incentives for agencies to 
collect recreation fees, and provide assurance to the public that a 
majority of revenues raised will benefit the site where fees are 
collected. To that end, we will be pleased to submit draft legislation 
during the coming year and to work closely with your staff. However, we 
do believe that permanent authority should not take effect until after 
the current temporary authority expires at the end of fiscal year 1999.
    A similar letter is being sent to Sidney R. Yates, Ranking Minority 
Member, Subcommittee on Interior and Related Agencies, Committee on 
Appropriations, House of Representatives, the Honorable Slade Gorton, 
Chairman, Subcommittee on Interior and Related Agencies, Committee on 
Appropriations, U.S. Senate, and the Honorable Robert C. Byrd, Ranking 
Minority Member, Subcommittee on Interior and Related Agencies, 
Committee on Appropriations, U.S. Senate.
            Sincerely,
                                                John Berry,
                                               Assistant Secretary,
                                      Policy, Management and Budget
                                         Department of the Interior
                                               James Lyons,
                              Under Secretary for Natural Resources
                                                   and Environment,
                                          Department of Agriculture

    Mr. Hansen. Thank you, Mr. Regula. Ms. Smith, do you have 
any statements or comments to Mr. Herger?
    Mrs. Linda Smith of Washington. To begin with, I've got two 
different groups. We have people who live close to the sites 
who have used those properties for many, many years for picking 
berries, for hiking around the Mt. Saint Helens site, which was 
obviously a volcano and now restored. And so we're not finding 
a lot of complaint, except for some of the families' having to 
pay 20 more dollars a year per member, and we are in an area of 
very large families, and a lot of stay-home moms. And it is 
very difficult. It appears that if we could have something for 
those closer. It is not just those distributing things into the 
site. It's those that live across the street. It's like you 
have to, where you used to go play and climb and hike, now 
you're charged. That's pretty steep for them--not for all 
families, but it certainly is for a significant number. And if 
we could find some way to get the Park Service to do something 
with the families that are real close, that would probably 
satisfy most of the complaints that I'm getting. Because I'm 
only getting them from those people. So if the Chairman could 
consider that, and possibly--both chairmen.
    Mr. Hansen. Thank you. Mr. Vento? Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Herger, I'll 
address the question to you and then have a comment. You know, 
this legislation was authorized by the 19, well first we had 
the Consolidated Rescissions and Appropriations Act of 1996, 
Public Law 104-134. How would you vote on that?
    Mr. Herger. Well, my understanding----
    Mr. DeFazio. Well, did you vote for or against the bill? 
I'm just curious.
    Mr. Herger. This was part of a large bill.
    Mr. DeFazio. Right, but----
    Mr. Herger. Of which I voted for.
    Mr. DeFazio. So you voted for the bill, but you were 
against this part of it.
    Mr. Herger. That's correct.
    Mr. DeFazio. Correct, OK.
    Mr. Herger. And my experience has been one that's been very 
much in the same line of Mrs. Smith.
    Mr. DeFazio. All right.
    Mr. Herger. Except I could put many exclamation marks. The 
local people, I can tell you, are incensed with this. I have 
probably had as many complaints on this one issue than I've had 
of anything I can recall in the 11 years I've been representing 
the area. And I would hope that at least we could look at----
    Mr. DeFazio. OK----
    Mr. Herger. [continuing] as Mrs. Smith mentioned, doing 
something for the locals.
    Mr. DeFazio. If I, if Mr. Herger, if I could----
    Mr. Herger. Yes.
    Mr. DeFazio. [continuing] if I could reclaim my time, 
because I've got limited time. And then we had the 1998 
Interior Appropriations Act, which extended it. Do you recall 
how you voted on that?
    Mr. Herger. Mr. DeFazio, all of these bills----
    Mr. DeFazio. Well, but I mean, did you vote for that too?
    Mr. Herger. I----
    Mr. DeFazio. OK, I voted it against it, you voted--OK. If I 
could reclaim my time--I have introduced legislation to repeal 
this and replace it with a modest charge on those who deplete 
minerals from Federal lands, a royalty charge, which is charged 
by all other owners of lands. Are you a co-sponsor of my bill 
to repeal it and replace this legislation with another form of 
fee?
    Mr. Herger. I believe I'd be very opposed to the latter----
    Mr. DeFazio. OK, all right, well, Mr. Herger, I would 
suggest that, you know, you voted for it twice, even though it 
was part of other legislation. There is one bill pending to 
repeal it, which is mine, and you're not a sponsor of it. I 
guess I'm looking for a little consistency here. I, you know, 
I'm opposed. I heard, with great interest, that the chairman of 
the Appropriations Committee talked about reductions in 
vandalism. Actually, we have a totally new form of vandalism in 
my district, which is very significant removal and vandalism of 
the signs for the fee areas. It's a new kind of vandalism.
    [Laughter.]
    Mr. DeFazio. So, I haven't had the experience of reductions 
in vandalism. You know, the kind of complaints I get are 
similar to those that Mrs. Smith has received, and you have 
received, people particularly who live in or adjacent to the 
forests.
    There was a precedent established in Oregon which may 
address their concerns and the Chairman may need to take this 
into account. In the Federal District Court in Oregon, you 
know, this doesn't just apply to parks. It applies to forests, 
you know; apparently, I don't know if there are any BLM lands 
doing it yet. It applies to beaches in Oregon, and some surfers 
who wanted to access a beach in Oregon on the other side of the 
Dunes National Recreation Area were ticketed for not having 
paid these fees, where they had no intention of using the 
trails. They just wanted to access the beach and surf, as they 
had done traditionally. They won in court. And it was found 
that they could not be ticketed or charged for that use.
    I'm not exactly certain of all the principles in that case, 
but I think that may undermine this fee program in a number of 
areas, and I think that the Committee ought to be looking for 
other, and more fair, alternatives to this tax on individuals. 
It flies in the face of most of the things I've heard from the 
majority on the Republican Contract. I mean, this is a tax on 
individuals who want to use public lands and, you know, I, and 
it's, it is inconvenient for people who live in those areas. It 
is burdensome for people of low incomes that live in those 
rural areas. It's even, I've experienced it as a pain in the 
butt because I bought a sticker. I put it on one car. But then 
I went backpacking and I took a different car, and I forgot, 
and I got all the way there, and then I had to drive back out 
again, find a place to buy one, slap it on my other car, and 
drive back in again. And I know that other people have had 
that, have had that happen.
    I think this is something that should come out of general 
funds or some other source, and not through this program. And 
the reason we haven't had too many complaints, also, is that it 
hasn't been enforced. Wait until this year, when the Forest 
Service starts ticketing people for money, instead of courtesy 
tickets, if you want to see a firestorm of protest, and/or 
vandalism, and/or antagonism toward the government and Federal 
employees. Last year, people just got courtesy tickets saying 
you should have a ticket. But this year they're going to get 
tickets for real, and it's going to be a very unpleasant 
experience for the Forest Service employees in my district who 
are issuing those tickets. Thank you, Mr. Chairman.
    Mr. Hansen. The gentlemen from California, Mr. Gallegly. Do 
you have comments for Mr. Herger, or an opening statement?
    Mr. Gallegly. Thank you very much, Mr. Chairman. And it's 
always a pleasure to have Wally here. Wally and I have been 
friends for a long time. In fact we were classmates in the 
100th Congress together, and we've been through a lot of 
battles and wars together. I think that the comments relative 
to those that live in the proximity certainly deserve a lot of 
consideration. I think Linda Smith was right on point. However, 
I would say that for those who are driving their $100,000 
mobile homes that go across the country, and go into a park a 
thousand miles from home, or 1,500 miles from home, to say they 
can't afford five dollars to help maintain the, the integrity 
of the public land, I think is a little bit disingenuous. But I 
do think that collectively we can work on this issue. But those 
that are immediately living in the area, I do think that we 
need to address that issue a little bit. But going across the 
country, I'm sorry. And I do appreciate the comments of Wally 
and look forward to working with him on this issue as well as 
many others.
    Mr. Herger. Thank you.
    Mr. Hansen. The gentlemen from Nevada has no opening 
statement. We'll appreciate the gentleman----
    Mr. Vento. Mr. Chairman, let me just comment if I could. I 
know you want to get going, and I'll just be brief.
    Mr. Hansen. The gentleman from Minnesota is recognized.
    Mr. Vento. [continuing] I wanted to be certain that Mr. 
DeFazio--Mr. Herger, I didn't see your statement in my file 
here, but I assume the concern was about Mt. Saint Helens?
    Mr. Herger. No, that wasn't----
    Mr. Vento. Well, that was----
    Mr. Gallegly. That's a bit north of----
    Mr. Vento. OK, what is the, what was the unit that you were 
concerned about?
    Mr. Herger. Well, I----
    Mr. Vento. Was there a specific unit? Was it a Forest 
Service unit or a Park Service unit? Mt. Saint Helen, of 
course, was a, is a Forest Service unit.
    Mr. Herger. We have nine national forests within our 
district--the specific, where the strongest concerns have been 
around Mt. Shasta.
    Mr. Vento. Does it concern user fees, or does it concern 
entrance fees?
    Mr. Herger. It would be, I assume that would be, entrance 
fees.
    Mr. Vento. I assume it's user fees.
    Mr. Herger. They're fees that are paid at such time as they 
enter the park.
    Mr. Vento. Well, is it for a camping reservation, or what 
is the purpose of it? I mean, because----
    Mr. Herger. It's anything they do utilizing the water at, 
for example, Lake Shasta----
    Mr. Vento. Well, I don't want to--I mean the concern is, I 
think, that we've always had, the Forest Service has had, 
historically, authority for user fees as well as the Park 
Service. That would be for parking a car, for a campsite, you 
know, primitive and so----
    Mr. Herger. This is just for day use for going use and use, 
like, the water----
    Mr. Vento. Just an entrance fee, but I guess that's under 
the experiment. But we had authorized, I think, for BLM and for 
Forest Service some of the sites, you know, that are a basic 
monument or type of a visitor contact station, not just for 
entrance. And of course there's a big increase. I mean, the 
real question here is, you know we go to a film or something 
and it costs five, six, seven dollars to get into a film. You 
know, and you talk about people, you know. So they, you know, 
the issue here is, how do we sustain or support this. I 
appreciate your comments about those that live in close 
proximity, and there are, of course, accommodations where you 
can get an annual pass because you're going more often. It is 
inconvenient, it is obviously a--they're on the learning curve 
with regards to understanding that.
    Mr. Herger. But even on that point----
    Mr. Vento. Yes, sure----
    Mr. Herger. [continuing] even on an annual pass, say 
someone living in Redding, California would have to buy a pass 
for Lake Shasta and an additional pass for----
    Mr. Vento. Yes. Well, I think that----
    Mr. Herger. [continuing] the lake, which are all within, 
maybe three miles.
    Mr. Vento. Well, I appreciate that, because the Forest 
Service doesn't have a Golden Eagle, so to speak, as the Park 
Service. So that's something that needs to be, needs to be 
addressed.
    Mr. Herger. And I would like to urge the Committee, there 
are a number of issues of this type that I'd like to see us 
address. We attempted to address this point, Mrs. Smith brought 
it up, of perhaps having the local area, some type of discount 
for people who leave there.
    Mr. Vento. Well, they already--I mean, I think there are 
accommodations----
    Mr. Herger. They determined that was not constitutional to 
be able to do that----
    Mr. Vento. Yes, well, I think there probably is a better 
deal than that that probably they can get for going to five or 
six parks, in terms of a Golden Eagle, or America the 
Beautiful, or some other type of pass that had been recommended 
previously. And this, of course, was an experiment, but there 
are in fact annual passes that permit any type, and there are 
even exemptions, of course, for those that need them. So there 
is a process set up, and obviously, as I said, everyone's on 
the learning curve with regard to this process.
    But I think the fundamental issue is that, the consensus is 
that those that use or those that visit these areas ought to at 
least help in sustaining them. These fees, of course, will 
never sustain the type of costs for maintenance for the expense 
of these units. So I think we, especially with our friend Mr. 
Regula here, we have to obviously point out that we understand 
the dilemma that he faces, because if we cut these back, all 
we're doing is adding to the backlog of costs that we have both 
in the Forest and in the park, and the other public land units.
    Thanks. Thanks, Wally.
    Mr. Hansen. The gentlemen from Montana, Mr. Hill. Do you 
have any opening statement? Gentlelady from Idaho, Mrs. 
Chenoweth, do you have an opening statement or comments for Mr. 
Herger?

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Mr. Chairman, I do have an opening 
statement.
    Mr. Hansen. The gentlelady is recognized.
    Mrs. Chenoweth. I'd like to thank you, Mr. Chairman, for 
holding this hearing on the recreational fee demonstration 
program, which we enacted last year. And normally I don't make 
an opening statement; I just submit it for the record. But I 
feel very strongly about this. As I was in the district last 
week, the issue of fees was something that I heard a lot about. 
So I commend you on holding this hearing now, and, and I do 
minimally support the concept of having users help contribute a 
minimal fee, specifically for recreational area improvement.
    But ultimately, I would like to see recreationalists have 
the best experience possible on well maintained forest 
campgrounds, facilities, and trail. Very small fees can play a 
role in that effort, but I am especially interested in this 
issue because a couple of areas in Idaho, most significantly 
the Sawtooth National Recreational Area, has been chosen as 
test cases for this fee program.
    However, I do have concerns about how this demonstration 
program has been implemented, serious concerns. Generally, I do 
not believe that agencies have done an adequate job selling the 
program to the public. The common complaint I have heard is 
that visitors have suddenly have had to pay a fee without 
knowing the reason why, and most people are not aware that 
these fees are to go directly to the upkeep and improvement of 
the specific area that they are visiting.
    And, Mr. Chairman, I do believe that in our, our general 
fund budgeting that, to the degree fees are collected and kept 
within that forest, then I think that we ought to be able to 
save the general taxpayer money by, in a comparable manner, 
diminishing our appropriations to the agency. Otherwise, we 
just have mounting of fees as well as a continued increase in 
our general funding.
    And my second concern, which is that there have been no 
noticeable improvement to campgrounds, hiking trails, boat 
docks, restrooms, and many other facilities and amenities that 
serve the general public. If there have been changes, the 
agencies have not done a good job of letting the people know, 
because evidence shows there hasn't. Just as any charity 
soliciting funds, the Federal Government must actively promote 
the benefits of fees.
    I am concerned also about what appears to be a case of 
double and even triple taxation that this program represents to 
some public lands users. In some States, there are already 
programs in place that collect a fee for improvements, 
especially the fee many off-road users pay in many States, such 
as the green-sticker program in California, and the OHV trail 
fund in Idaho is one such example. So we need to make sure that 
we're not double-charging these people, and that we're not 
negatively impacting our counties and the tourism industry that 
so many of our States and counties have learned to lean upon 
with the diminishment of active natural resource industries 
being fees from them, and resources from them, being made 
available to the counties.
    And with that, Mr. Chairman, again I want to thank you very 
much for holding this hearing.
    Mr. Hansen. I thank the gentlelady from Idaho. That takes 
care of the opening part.
    Mr. Herger, you're more than welcome to join us on the 
dais. We appreciate having you with us, if you have the time to 
stay with us, and appreciate your testimony.
    Mr. Herger. Thank you.
    Mr. Hansen. With that in mind, let's turn to the first 
panel. Our two panelists will be Mr. John M. Berry, Assistant 
Secretary, Policy Management and Budget, Department of the 
Interior, and Lyle Laverty, Regional Forester, Rocky Mountain 
Region. They both are accompanied by--Mr. Berry is accompanied 
by Henry Schmitt, Maureen Finnerty, and Dr. Roger Coleman. Mr. 
Laverty is accompanied by Greg Super. We appreciate these folks 
being with us. Mr. Berry, this is twice in one week you've had 
this opportunity. We appreciate you being here. Five minutes 
OK? You need any little extra time, let us, let us know, OK?

    STATEMENT OF JOHN M. BERRY, ASSISTANT SECRETARY, POLICY 
MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR, ACCOMPANIED 
   BY HENRY RODGER SCHMITT, GROUP MANAGER, RECREATION GROUP, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Berry. OK, thank you Mr. Chairman.
    Mr. Hansen. Thank you for appearing before us, and, Mr. 
Secretary, we'll start with you.
    Mr. Berry. Mr. Chairman, thank you. I'm very pleased to 
talk to you and the Committee about the experiences we've had 
with the fee demonstration program, which have been mostly 
positive, I would like to add, and, based on our first year-
and-a-half experiment with this demonstration project.
    As you know, this project has been a joint effort on the 
part of three bureaus within the Department of Interior and the 
Department of Agriculture's Forest Service. These agencies 
manage a variety of resources under a variety of authorities, 
yet for this experiment they have worked very closely and have 
found that they have a great deal in common.
    I have prepared a statement, Mr. Chairman, that, with your 
agreement, we would just submit for the record, and I'll try 
and summarize here.
    Mr. Hansen. Without objection.
    Mr. Berry. But I would be pleased to also introduce the 
folks who will with me who can help us answer questions in 
specific detail about each of our bureau's programs. We have 
Maureen Finnerty, who is the Associate Director of the National 
Park Service for Park Operations and Education. We have Dr. 
Richard Coleman, Director of Refuges for the Fish and Wildlife 
Service. And we have Roger Schmitt, who is the Group Manager 
for Recreation in the Bureau of Land Management. So they'll be 
with us in case we have specifics that I'm unable to answer.
    Visitor response to the demonstration fees program has been 
very positive. Both the National Park Service and the USDA 
Forest Service conducted surveys to assess visitor reactions 
during the first full year of the recreational fee 
demonstration program. Overall, 83 percent of National park 
visitors surveyed said they were either satisfied with the fees 
they paid, or thought the fees were too low. In the Forest 
Service, over 6 percent of people who completed a survey card 
said that the opportunities and services they experienced were 
at least equal to the fee that they paid.
    We believe that the strong support so early in this program 
is primarily because the fee revenues have not been offset by 
reduced appropriations, and because receipts remain in the 
recreation areas in which they are collected, to be used to 
improve visitor services and to protect resources. Our visitors 
seem to be responding with greater care to the recreation 
resources, for there is increasing evidence that incidents of 
vandalism have decreased in areas where recreation fees have 
been collected.
    We also believe that much of this public acceptance came 
about because we involved and communicated with the public in a 
process, in a variety of ways. At the local levels, our 
agencies spent a great deal of effort working with the public 
through formal communication plans, news releases, meeting with 
local community leaders, constituent groups, advisory councils, 
information leaflets, explanatory videos, open houses at the 
parks, public workshops, comment cards, and then signs, 
entrance signs and bulletin boards. These efforts, I believe, 
were important to the success of the public reception for the 
recreational fee demonstration program.
    Interagency cooperation has blossomed under this 
recreational fee demonstration program. The participating 
agencies have established a record of cooperation that I 
believe is unprecedented in this, in this government. This is 
true not only among the Department of Interior's bureaus, but 
also with the Department of Agriculture's Forest Service. 
Throughout the process of implementing the program, fee 
managers from the four agencies held regular meetings to 
discuss progress, approaches, problems, and solutions. And they 
have developed common approaches for evaluating the fee 
program.
    Mr. Chairman, I could go into a great deal about our 
accomplishments, but they're already described in a report that 
we have prepared for the Interior, Agriculture Committees on 
Appropriations, and which I believe we have made available to 
the Committee and to the Members. I'd just like to highlight a 
few of the summaries, points in that report.
    First, a very large majority of visitors' levels have been 
sustained during the initial year of new fees. The initial data 
we have on visitation during the first full year of the program 
indicate that fees appear to have a negligible impact on 
visitation levels. Of course, we will not be satisfied with a 
single year's experience.
    Second, recreation fee revenues have increased 
significantly in all four agencies administering this program. 
Between 1996 and fiscal year 1997, recreational fee revenues 
increased by 57 percent in the National Park Service, 35 
percent for the U.S. Fish and Wildlife Service, and 11 percent 
for the Bureau of Land Management. This is good news, for it 
identifies a new source of revenue in addition to public 
appropriations that will allow us to improve visitor services 
and deal with our serious backlog of infrastructure needs.
    Third, the agencies are evaluating a wide variety of 
different types of fees. Some are variations of entrance fees, 
ranging from individual and carload fees that are typically 
collected at an entrance kiosk, to the Golden Eagle Passport, 
unit-specific annual passes, and also multi-unit passes that 
allow entry into several sites of the same Federal agency, or 
several sites operated by different Federal, State, local 
agencies. Too, we're trying to address some of the concerns 
that Mr. Herger and some of the members of the panel have 
already raised this morning. We are also evaluating several 
types of user fees for such uses as parking, hunting, camping, 
boat launching, dumping of sanitary waste from recreation 
vehicles, and expedition fees.
    Fourth, the agencies are evaluating a wide variety of 
methods for collecting the fees, from typical ranger in the 
kiosk, to automated collection machines and collection by mail. 
And we are looking at different approaches to this that will 
include using our employees, partnership arrangements with 
other agencies, volunteers, as well as consignment with 
private-sector vendors and concessionaires.
    Fifth, the agencies--Mr. Chairman, if it's OK, if I would, 
I see the red light, but I----
    Mr. Hansen. Go ahead, Mr. Berry. I want to hear your 
testimony.
    Mr. Berry. Just got a couple more minutes.
    Mr. Hansen. Don't let the light bother you.
    Mr. Berry. Great.
    Fifth, the agencies have found that some of the initial 
collection costs for new fees are higher than expected, and 
certainly higher than they will be over the long run. The 
reason for these higher costs initially is the large startup 
and capital costs for instituting some of the capital 
infrastructure that needs to be in place to collect the fees, 
such as kiosks, entrance stations, new equipment, and supplies 
that have to be in, in availability to monitor.
    The agencies will continue to look for ways to reduce the 
cost of collecting these fees, but it's also important to note 
that cost-effectiveness may not always be possible. In some 
sites, for example, the particular mix of low visitation and 
multiple access points may just make it impractical, 
impractical to institute any fees at all.
    Finally, the agencies have begun the process of financing 
maintenance backlog projects. Considering that we are now only 
into the second full year of the recreation fee demonstration 
program, and that many of the revenues were not available to 
the bureaus until the end of fiscal year 1997, the 
participating agencies have begun a significant number of 
projects that will reduce the backlog maintenance requirements 
and provide public service enhancements at recreationsites. I'd 
like to point out just a few.
    At Yellowstone National Park, they are rehabilitating their 
deteriorated electronic infrastructure for safety and resource 
protection, repairing utility systems, replacing deteriorated 
docks, rehabilitating trail and overlook, interpretative 
exhibits, and back country sites. In Paria County, on the 
Arizona-Utah border, the Bureau of Land Management used fee 
revenues to maintain and upgrade sanitation facilities at trail 
heads.
    The recreation fee demonstration program has been a very 
positive experience for participating agencies, and the 
agencies agree that long-term implementation of the fee program 
is desirable. We wish, however, to emphasize our strong desire 
that any permanent authority should not take effect until after 
the current temporary authority expires at the end of fiscal 
year 1999. The test is entering its second full year, and our 
current findings and observations are preliminary. The full 
evaluation of this program will not be completed until March 
1999. Yet even at this early stage, we are very pleased with 
the results, and we would like to work with you to design a 
program that builds on that positive experience in implementing 
this effort.
    There are a few elements which I would like to recommend 
for your consideration for permanent legislation. These 
elements are presented in more detail in the report that we 
have submitted, but let me just touch on a few.
    First, we would emphasize the need for flexibility to 
tailor fees to meet specific management and visitor needs. We 
simply caution that one size does not fit all.
    Second, we think it is crucial to recognize the importance 
of incentives in the design of recreation fees. The provision 
in the demonstration program that fees be applied to onsite 
backlog maintenance projects provides a very substantial 
incentive for recreation managers to collect and keep the cost 
of collection low. People seem much more willing to pay fees if 
they know the revenues will directly benefit the resources that 
they are enjoying.
    Third, the provision that allows agencies to utilize the 
revenues over more than a single fiscal year can help agencies 
do better long-range planning to approach backlog reductions, 
and implement reform and rehabilitation in a more systematic 
way.
    Finally, we believe that this provision, that the provision 
that sets aside some of the fee revenues for addressing broader 
agency priorities would be an important element to continue in 
any permanent legislation. We caution that a fixed formula that 
returns a high percentage of revenue to the collecting site 
could, over the long run, and this would be long run over 5 to 
10 years, could create undesirable inequities within an agency, 
where certain popular facilities have more funds than they can 
effectively use, and others that don't have the public access 
would face continuing deterioration.
    So we need to consider the possibility in determining 
what's the appropriate balance between the needs of the fee-
collection site in the long run, with the backlog maintenance 
needs of the entire agency.
    Mr. Chairman, thank you. That would conclude my statement, 
and I'd be happy to answer any questions.
    [The prepared statement of Mr. Berry may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. Mr. Laverty.

    STATEMENT OF LYLE LAVERTY, FORMER DIRECTOR, RECREATION 
PROGRAMS, REGIONAL FORESTER, ROCKY MOUNTAIN REGION, U.S. FOREST 
  SERVICE, ACCOMPANIED BY GREG SUPER, NATIONAL RECREATION FEE 
 DEMONSTRATION PROGRAM COORDINATOR, U.S. FOREST SERVICE; LINDA 
                   FELDMAN AND FLOYD THOMPSON

    Mr. Laverty Mr. Chairman, it's an honor for me to be here 
today to discuss the fee demonstration program as it relates to 
the Forest Service and how we have been able to implement this 
program. I'm delighted to be here, because I have great 
interest in what is happening, and even though I have 
transitioned from Washington to Colorado I had great interest, 
as I served in, not only the Director of Recreation, but also 
in the Acting Associate Deputy Chief role as we began to roll 
this out.
    Many of the comments that I'll share with you, Mr. Berry 
has already captured, and I think as we have looked at the 
implementation of the fee demonstration project across agency 
lines, it truly has brought agencies together. I'll just 
summarize some of our remarks, because many of the things that 
we have prepared in our statement are already captured by Mr. 
Berry, and I'll zip through that so we can engage with any 
questions you might have for us.
    I am accompanied by Greg Super, as you mentioned, and Linda 
Feldman on our staff, and Floyd Thompson, who are really the 
key folks on our staff that help make this come about. For the 
Forest Service, it was really an incredible journey for us as 
we began implementing the program, simply because in many of 
our sites, unlike many of the Park Service sites, we had not 
charged fees before. So we embarked in a endeavor where we 
started essentially from ground zero in terms of helping people 
understand that we were in fact going to collect fees but, more 
importantly, as Mr. Herger even pointed out, that we need to be 
able to let people know why and how these fees are going to be 
collected, but how they're going to be used.
    And I can share with you, as I've talked to folks around 
the country, that folks are very, very supportive of the idea 
of paying fees, as long as they know those fees are going back 
on the site, they can actually see some tangible results.
    As Mrs. Chenoweth pointed out, we are just the in process 
now of beginning to implement some of those fees and actually 
make some of these improvements. We had projects on, in fact at 
Flaming Gorge, where the ranger, as soon as he started 
collecting fees, began making significant improvements on boat 
docks right away, even though he didn't have all the fees in 
hand. And, you know, so that people could visibly and tangibly 
see that these fees were actually showing some improvements on 
the facilities that they used.
    Let me just capture a few points that I think are 
significant, and then, I think we can answer any questions you 
might have. As I look at what's happening in the National 
forests, we're just continuing to see increased demands for 
recreation. And, as we have pointed out with, with the 
Committee in the past, the demands are far outreaching our 
abilities to deliver the services, in terms of providing the 
basic attention to the services that people expect. But I 
think, more importantly, the investment we need to be making as 
we protect America's resources, I think this is one of the 
significant tools that has come to us as a result of the fee 
demonstration program. That it does, in fact, give us the 
opportunity to make not only investments to serve people, and 
also to protect these resources so that future generations are 
going to be able to enjoy many of the same things that we're 
experiencing today.
    The recreation use on the National forests, as well as all 
public lands, are significant contributors to the gross 
domestic product, and as we begin to rack up, across agency 
lines, contribution that takes place on public lands as a 
result of recreation is significant. That, that use on local 
economies is extremely significant. I was in Glenwood Springs 
yesterday, and listened to folks from the community talking 
about the importance of the National forest in that community's 
economy as it relates to the use that takes place there. And as 
we look at how we can invest to make sure that those resources 
that draw and attract people to these lands are sustainable. 
Our trails are an excellent example. If we're not able to 
sustain trails, these folks that normally would hike, are going 
to make choices to go somewhere else. And that's where I think 
the value for us in being able to return these resources and 
funds back to the sites to improve and maintain these systems 
is critically important.
    I'd like to just share maybe with you a few ideas that we 
would recommend that you consider long-term engagement of a fee 
bill. And the values that we have learned, and we would capture 
that, as we aggressively moved on implementing the fee program. 
Back in 1996 when the Congress passed the opportunity for us to 
do this, we moved right along. And we actually implemented 
projects in 1996. And we have learned a lot. We viewed this as 
a test, and we have, we went through a very structured process 
in terms of how we started. We required business plans, we 
required communication strategies, and setting up the whole 
financial and cash management accountability part, which I 
think is extremely crucial for us as we implement the program. 
And if I could just take a couple minutes, I'll be done, and 
then we can start.
    Mr. Hansen. Nancy, maybe you want to turn the light off.
    [Laughter.]
    Mr. Laverty. This is a great conversation. We, we really 
viewed this as a test, and the places where we have been 
successful, we have found that that up-front communication has 
been absolutely crucial. Where people could really understand 
why we're collecting the fees, but more importantly how we're 
going to use those fees.
    I was talking to the ranger on the Clear Creek Ranger 
District--this is the Mt. Evans project. One of the ideas that 
he has to better communicate with the folks on what we have 
actually collected in 1997, but on the other side of this 
little hand-out that he's going to distribute to the folks that 
actually pay the fees, is going to show exactly how those funds 
are going to be used. So we have that accountability, not only 
internally, but also with the people that pay those fees. And I 
think that's our key for our success.
    Let me just suggest there's four elements that I would, I 
would capture that you want to consider, at least as we've 
learned from the past. The first is that, I would recognize 
that this, this joint agency effort. And I would hope that as 
you consider long-term consideration on this bill, or permanent 
legislation, if you could give us some clarity and some 
authorities where we could even cross across lines, not only 
with Federal agencies, but even with some States and counties. 
We've got some projects that, that we're doing this, but it's 
been really tough because we have folks that think we don't 
have the authority to do that. That would be most helpful.
    I think in terms of building a long-range planning, some of 
the things that Mr. Berry spoke about, as we know that we have 
a more permanent authority coming that we can carry over some 
of those funds to take on larger projects than simply one year 
at a time type of projects. I think the idea, perhaps, for you 
to consider broadening the fee demonstration authorities, where 
we could expand to include the recreation-related activities, 
such as some of the fees that we collect off of outfitter and 
guide permits. If we were able to keep even a portion of some 
of the fees from some of the ski areas, that we could put back 
into the administration and improvement and enhancements. Right 
now, all those funds simply go back into the Treasury.
    Let me just close it off, because I know that we need to 
have some conversation about some of the questions you might 
have. But I would just close by saying that we aggressively and 
totally endorse the concept of the fee demonstration program. 
It's been a great tool for us, and, you know, we're just in the 
process right now, I think, of beginning to demonstrate that 
government works, and that government can work well. And I 
think this is really key. We've got some bumps in a road that 
we're addressing, and as we pick these up, we've aggressively 
gone back to take care of that.
    I think the piece I would just share with you, comments 
from the people that are paying the fees has been very, very 
positive. Certainly, as Mr. Herger pointed out, we've got some 
folks that still don't agree with the fee, period, but I think 
as we begin to show and demonstrate the results, folks are 
going to accept that. I appreciate just the chance to share 
with you, and would love to get you out and show you some of 
our projects on the ground.
    [The prepared statement of Mr. Laverty may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Laverty. I appreciate your 
comments. You folks that are standing back there, if you're so 
inclined, this bottom tier, no one's going to use it, if you'd 
like to sit down, we'd be more than happy to have you do that. 
If you want to stand, that's up to you, but I'm embarrassed to 
see you standing there.
    We'll start with members of the Committee to question this 
panel. Mr. Hill from Montana, you're recognized for 5 minutes.
    Mr. Hill. I thank you, Mr. Chairman. I just have a couple 
of questions about the fee structure.
    Are any of the concessionaire fees retained within the park 
for the purpose of the park services, or, or are they, or do 
they go to the general treasury?
    Mr. Laverty. I'll speak on the Forest Service side. Right 
now, those all go into the general treasury.
    Mr. Hill. Those all go to the general treasury?
    Mr. Laverty. Yes, sir.
    Mr. Hill. And how do those fees compare with the other fees 
that you charge directly to people who, either admittance fees 
or user fees. Could you give me some indication of what that 
relative amount of money is?
    Mr. Laverty. I don't have those figures here, but I could 
certainly pull that up. I used to know those figures, but I've 
forgotten that stuff.
    Mr. Hill. I mean, obviously, the concessionaire fees are 
indirectly fees that are charged for people who use the parks. 
It just seems to me that if we're going to be talking about 
trying to create an entrepreneurial climate within the parks, 
we ought to consider whether or not some portion of 
concessionaire fees or something ought to be retained within 
the park. What do you think of that idea?
    Mr. Laverty. I think if we were able to keep some of those 
fees in the fee demonstration program, it could go a long ways. 
I think it could help us do a couple of things. We could 
enhance the administration that goes on right now in terms of 
how we administer those special-use programs, particularly 
outfitter and guide programs. And if we were able to get some 
consistency, I think we would find our relationship with many 
of the outfitters would even improve.
    Greg was just telling me that our, our special use fees 
that we collect, are about $37 million. Last year, we collected 
about $8 million under the fee demonstration program, and we 
expect that to go up significantly as we begin to implement the 
program. We have 40 projects underway that we actually 
implemented in 1996-1997, another 5 ready to go on line in 1998 
and 1999, so, I think we'll see that fee collection increasing 
to be probably comparable over time.
    Mr. Hill. Is there any relationship between the fees the 
concessionaires pay, and the use of infrastructure they have? 
For example, sewer and water costs, and those sorts of things 
within the park or within the--now, I would ask any one of the 
three of you to respond to that. Are those fees, do they bear 
any relationship to the services that they also consume?
    Mr. Berry. Yes, sir, Mr. Hill. Each concession contract in 
the Park Service is an individually negotiated contract between 
the concessionaire that accounts for opportunities and other 
costs that are subject to that. In response to your last 
question, in the Park Service, the general rule is that our 
concession funds are returned to the Treasury, but there are 
instances in certain concessions in certain parks where we have 
the ability to keep some of those funds on park site. And we 
can get you a more detailed break-out of that, I think, in an 
answer to the record.
    Mr. Hill. I would appreciate having that.
    Noting that, you know, a lot of the backlog is associated 
with infrastructure needs, and, I mean, how do you fund those 
infrastructure needs? Substantially, now, they're being funded, 
obviously, by the Treasury, I mean, just general taxpayers. 
Some of it's going to be funded from increase in user fees. 
Seems to me that, if we're going to address this whole issue, 
that we ought to look at that again. I'm not making a case for 
more concessionaires' fees; I want to make that clear. I'm just 
saying, though, that there ought to be some relationship there, 
and those, it seems to me, those dollars ought to stay within 
the park, too.
    Mr. Berry. You raise an excellent point, Mr. Hill, and the 
administration, we're working now between the departments and 
the Office of Management and Budget on preparing some 
concession approaches similar to what you're talking about, so 
that we can submit those for your consideration. But you, 
you've hit on a very god point.
    Mr. Laverty. One of the points I would also make, Mr. Hill, 
that relates to outfitters and guides on the National forests 
is that most of those folks do an incredible amount of 
volunteer work for us, just doing basic maintenance that we 
would not be able to do ourselves. That's not part of the 
permit, but, you know, that's work that's being contributed by 
the folks, you know, for, oftentimes in addition to what the 
fee that they pay. So that probably doesn't cover all that.
    Mr. Hill. Thank you. Thank you very much, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Minnesota, a 
member of the Committee, is recognized for 5 minutes.
    Mr. Vento. Thanks, Mr. Chairman. I didn't make an opening 
statement, but I did read yours and noted your concerns with 
regards this experimental program, and specifically with regard 
to trying to guide the use of the entrance fee and user fee 
type of programs. It's really pretty confusing for those that 
are not familiar with this. And, of course, when my colleague 
from Montana, introduces concessions into the process, you can 
really, I'd suggest--and I think that, you know, he had some 
very good points with it, but that if we're going to deal this, 
we try to deal with the user and entrance issue. And what you 
were removed from, like, for instance, I mentioned Mr. Laverty 
that you actually have broad authority to implement user fees, 
in almost many instances. Is that correct?
    Mr. Laverty. That is correct, yes.
    Mr. Vento. And this, this gave you flexibility to put in 
more user fees, not entrance fees, because you hadn't had that 
except in the special units that we designated in 1993. Is that 
correct?
    Mr. Laverty. That's correct.
    Mr. Vento. And so the, the point is that this freed you up 
in terms of not being limited by the land water conservation 
law, in terms of where you could charge user fees. These user 
fees are generally designed to pay for what the actual use is 
of a campsite, and they go directly into that site. Is that 
right? Or a parking lot or some other activity?
    Mr. Laverty. That's correct. We have used those for trail 
fees, where those funds are going back for trail maintenance, 
and that's one of the significant----
    Mr. Vento. So none of that goes to the Treasury, does it?
    Mr. Laverty. That's correct.
    Mr. Vento. That does not. I mean, it's only these entrance 
fees that the new issue. You hear, someone's going to give you 
some advice now.
    Mr. Berry, have you been around this a little bit so you 
get the difference here?
    Mr. Berry. At the Parks and Fish and Wildlife, and Public 
Lands, there is a distinction between the departments in this 
regard in that we generally approach it from the entrance fee 
approach, as opposed to the service approach.
    Mr. Vento. Well, I think we have in the Park Service, I 
think the others--of course BLM recently in 1993 was granted 
authority for special units. I don't really know the Fish and 
Wildlife Service, but obviously it's a small amount of revenue 
there. We look at these figures, and then there's also a county 
sharing in terms of some of the type of fees that are present 
here, that the counties actually, under normal law, would get 
some share--not under the user fee, I don't think, but under--I 
don't know if under user fees or not. Mr. Laverty, do they get 
part of the user fees too?
    Mr. Laverty. Under the fee demonstration, they do not.
    Mr. Vento. They don't, but otherwise they would, is that 
right?
    Mr. Laverty. That's correct.
    Mr. Vento. Well, that's sort of problematic, especially if 
we want the money to go into the purpose for which it's 
intended. Of course, it isn't enough but, you know, I'm a 
little--the concern here, of course, asking for more 
specificity, you know, is going to end us up at the 
Appropriations Committee again. And then when you get the 
revenue comes all to the government, then it gets to be an 
offset in the appropriations bill. And, of course, that's one 
of the problems with this concessions policy, you know. They're 
trying to find a balance between the superintendent, or the 
supervisor of a forest, or the other administrator, and the OMB 
and appropriator type of process. Because the money just 
doesn't seem to get back once it comes to Washington--at least 
not all of it.
    And, of course, there are a lot of units that don't have 
any collection of fee money. I notice that these ideas seem to 
be a better idea in Washington than sometimes in the field.
    Mr. Laverty. I have spent the last two-and-a-half months 
talking to a lot of the folks in the field, and I can tell you 
that there's a lot of enthusiasm and great support among agency 
people, you know, with this, with this program. I wish we could 
have some of the folks that I talked to yesterday, that were 
just talking about the project that they have at Vail Pass. 
These folks are enthused about it, but also, more importantly, 
is that they're finding that there is a great support from the 
public that is paying that. And, you know, I can't share that--
--
    Mr. Vento. No, no. I understand that but I think there is 
some, I think as I said that the public is on the learning 
curve and you have to become acquainted with this. For 
instance, in the case that our colleague presented in his 
testimony, it looks to me there is no pass that would be 
applicable. You have the authority and have exercised the 
authority to provide a single pass for multiple units. Hasn't 
the Forest Service done that?
    Mr. Laverty. Yes, we have.
    Mr. Vento. You haven't done it in northern California or 
Oregon, I guess, is the problem.
    Mr. Laverty. Southern California has one, and northern, the 
Oregon----
    Mr. Vento. So they do have it, so it's just a matter of 
misunderstanding at this point, at least in term of the pilot 
program?
    Mr. Laverty. That's correct, and I think we also share, 
though, the point that I believe you're going to make is that 
we've got 40, maybe a hundred projects on the national forests; 
we've got 40 or a hundred projects on the national parks and 
BLM. And at some point in time, we need to begin look at, you 
know, should there be, whether it's a State pass that covers 
all agencies, or should it be a Federal pass.
    Mr. Vento. Well, I hope my colleagues----
    Mr. Laverty. I think those are some of the things that we 
can learn.
    Mr. Vento. Yes. I hope my colleagues will be patient with 
this and try to work it through. I think there's nothing worse 
than having something start in fits and starts and maybe we can 
get the insights from this, and then proceed. But to completely 
just pull it back because there is a misunderstanding or 
political reaction to it, I think would be the wrong thing to 
do. This wasn't my baby; this was Ralph's, but I've been 
through this before, and I think that there's nothing worse 
than having something that goes in fits and starts, especially 
on an issue like this. And I think that we should try to build 
the consensus on the Committee, and to be reasonable where we 
can, look at these factors more carefully, and give some 
guidance, but, hopefully, keeping the money in the, in the land 
management units, and with the type of flexibility. I think, 
obviously, the comments you made, Mr. Chairman, about what's 
happened with some of the money, you know, fall right in line 
with why there are the certain requirements in the Land, Water 
Conservation Fund. They may not be perfect, but they're better 
than nothing.
    Mr. Hansen. Thank you. The gentlelady from Idaho is 
recognized for 5 minutes.
    Mrs. Chenoweth. Thank you, Mr. Chairman. If I didn't make 
myself clear in my opening statement, I want to make it clear 
now. I think that for us to look at the possibility of charging 
fees, user fees, in the Park Service is one thing. But for the 
record, I am adamantly opposed to user fees, or fees being 
charged by the Forest Service and by Department of Interior for 
anything other than National parks, and anything other than an 
experimental demonstration fee program.
    It's creating tremendous reaction in my district. In fact, 
or in my State. In Mr. Crapo's district, there's a little city 
named Salmon, Idaho. And the mayor and the city council adopted 
a new vehicle use fee test program. And the proposal is that 
the city of Salmon is proposing to charge all U.S. Forest 
Service vehicles using city streets to a use fee. The purpose 
of the fee is to replace declining funds and to provide 
finances to ensure we provide quality road experiences while 
traveling on city streets. The current allotted funds do not 
adequately cover the cost of maintaining the highly used 
streets, and the U.S. Forest Service was chosen as a test group 
because they have established user fees on the Salmon River, 
and several Forest Service-operated areas and must believe this 
is an accepted method of raising funds.
    They go on to say the city of Salmon will share the 
information gathered from this project, and will provide, free 
of charge, to any city, the procedure used and the amount of 
funds brought into the city budget. The city will receive 
comments until May 29, but just like the Federal Government, it 
doesn't matter what you say. The fee will begin on June 1st.
    It's a little half-serious, tongue-in-cheek, but the fact 
is that the mayor of Salmon wrote to me and said this is an 
area where the average family income is about $18,000 a year. 
And the mayor says the fees that are being charged means that, 
if I'm traveling from Boise to my home in Salmon, Idaho, and 
choose to stop along with my wife and three children for a 
picnic under a tree, I will have to pay $10. And if I need to 
stop along the road at one of the outdoor toilets, I will be 
expected to pay two dollars a person.
    So this is the kind of thing that I'm receiving in my, in 
my district, Mr. Chairman. Actually, if we wanted to paint a 
great big, huge sign in the name of the free market system and 
charge fees, which is what we're doing, we might as well paint 
a huge big ``keep out'' sign to all of the citizens with 
regards to what's happening on our National forests. Our trails 
are being shut off, access to the river is being shut off, our 
roads are being shut off, maintenance is declining. And because 
the Federal Government, this Congress, has failed to fence 
funds, which we didn't because we trusted the administration 
and the Federal Forest Service, funds are being shifted from 
those areas that we have allocated moneys for to other areas 
that are unauthorized, unappropriated programs such as the 
American Heritage Rivers initiative, the Inner Columbia 
Ecosystem Management plan.
    And I think that the idea of trying to utilize Ludwig von 
Meese's theory of freedom of the marketplace with a Federal 
agency is ludicrous. And I think we need to look in another 
direction to raise funds. Now, if we charge fees for the Park 
Service, I think also that we ought to reduce the general fund 
by an appropriate amount, by a corresponding amount. Because we 
have increased funding to Interior and to the Forest Service 
for several years now. And we're seeing the services to the 
general public decline.
    And I just want to make one final statement, and that is 
that many of the user groups are willing to put forth their own 
effort, and their own funds, and their own time to help improve 
roads and trails and facilities. So, I just wanted to make that 
clear.
    And, Mr. Chairman, I have 12 questions that I would like to 
ask, especially of Mr. Laverty. My time is up, so with your 
indulgence, I wonder if I might submit those to the Committee 
to ask the questions for me.
    Mr. Hansen. All the questions from members of the 
Committee, I'm sure, our witness would be more than happy to 
respond to those in correspondence. And if they do it, I wish 
they'd correspond to all of us so we can all get the answers to 
it.
    The gentlelady from the Virgin Islands.
    Ms. Christian-Green Thank you, Mr. Chairman. I don't really 
have any questions. I just wanted to make a brief statement.
    St. John in my district is a very beautiful island, with 
some of the more beautiful parks, but its facilities are also 
in very bad disrepair. We have a new superintendent, who 
quickly moved on coming to St. John to get the last slot, I 
believe, in the fee demonstration program. And so now meetings 
are being held in my communities, one as late as last night, 
and I haven't heard how it went. But I listened with a great 
deal of interest to the fact that across the country the fee 
demonstration programs are being received with broad 
acceptance. I'm not too sure that that's going to happen in St. 
John, because when the parks were turned over, when the land 
was turned over to the National Park Service, it was with the 
understanding that the residents of St. John, and I believe the 
entire Virgin Islands, would never be charged a fee for the 
parks.
    And so, Mr. Chairman, this is a very timely hearing for me. 
I thank you for holding it. It's also very informative. I 
really don't have any questions, but I do share some of the 
concerns that were voiced already, that the fees that are 
collected be returned to the park for maintenance and other 
uses in the park, and that it not be used to replace 
appropriations, but be a supplement.
    Mr. Vento. Will the gentlewoman yield to me briefly?
    Ms. Christian-Green. Sure.
    Mr. Vento. I was just going to point out that most of the 
units, when they were established in terms of parks, if they 
had a Native American or, in fact, an indigenous community that 
actually was involved, that there are exceptions, usually, for 
them not to be charged fees. In a sense, I don't know if this 
particular measure overrode that, this experiment overrode 
that.
    But, of course, as I said before, I think the distinction 
between user fees is very important, because user fees, they 
have general authority always to put into effect user fees. And 
so the real authority here might be that they have more 
flexibility with regards to what user fees, where they're 
charged, and what parcels. But entrance fees would be, 
obviously, a different matter, and there's a whole list of 
these fees, if we'd look at this study we have, in terms of 
reservation fees and other charges that are accumulating to the 
cost of the Forest Service for providing recreation. And one of 
the laments we often hear is that the recreational user is not 
carrying his fair share, and this means that costs are being 
shifted in different directions.
    Here we've got a minuscule amount of money that's been 
collected so far in the Forest Service. I mean, compared to its 
overall budget, it's I think, like a $2 million increase, and 
we got a

firestorm, really, in terms of, I think a lot of 
misunderstanding and, about it. But it, you know, there's many 
of us that would like to find a way to permit these units to be 
used and not charged. But that is predicated on the funding. 
I'd be happy to yield back. But I just wanted to point out that 
there is an opportunity for, many times, from parks or other 
units that are created for non-charging for certain 
populations.
    Ms. Christian-Green. OK, thanks. I'd like to just reclaim 
my time, and I would ask that question. Because, in talking 
with our superintendent, he was saying that we could not waive 
the fees for residents. Is that true, or can there be a fee but 
the residents, because that was the understanding when the park 
was created, be exempted from the fee?
    Mr. Berry. There is flexibility with each park, 
Congresswoman, so that we look into that situation with you. We 
do try to respond and provide flexibility to local residents in 
some of the instances that were described, when construction 
people have to drive through public lands to get to work, or 
other things. So there is clearly flexibility. We need to look 
at your specific situation, and let me find out with you. We'll 
work with the ranger and we'll get back to you on that.
    Ms. Christian-Green. Thank you. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. I see the bell has rung for a vote over in the 
House, but I'd just like to indicate that, now that the 
President and the Congress are balancing the budget, I hope 
this Committee some time, Mr. Chairman, would have a hearing on 
my bill, which would take the Land and Water Conservation Fund 
totally off-budget. Let us use the Land and Water Conservation 
funds for what they were originally intended. So I hope you 
will consider my bill on that.
    Mr. Hansen. That should be interesting.
    Mr. Kildee. I yield back the balance of my time.
    Mr. Hansen. Thank you. We appreciate this panel. Let me 
just say this: This is an experiment. We tried it out. This 
oversight hearing is to try to determine if we want to 
continue, we want to leave it as-is, where we want to go. You 
can see we're fraught with problems in a thing like this. You 
heard all the testimony.
    It's rather easy to take a park that is isolated and have 
an entrance fee. That's pretty simple. We expand it to user 
fees that the gentleman from Minnesota has talked about. 
Reservation fees, we're talking about. You have problems like 
Mr. Kildee just brought up, drive-throughs, which we're talking 
about Yosemite right now. Zion's National Park in my district 
has the same problem. One in Florida has the same problem.
    We're trying to figure out how do we work this out. You go 
to the Park Service, that Mr. Laverty has pointed out. It's 
probably got bigger problems. Camping fees, you're in that 
area; how do we do user fees. Now we get into recreation areas, 
like we have at the Flaming Gorge and we have a the Glen Canyon 
Recreation Area. We have reclamation problems. I've got 
something here that talks about the two dollar fee at Flaming 
Gorge just isn't making it anymore. That's two dollar vehicle 
per day fee.
    So how do you make a fit-all, and I think Mr. Berry's 
right. There is no thing where you can make it fit everything. 
So as we look at this, we're going to have to be very careful 
in figuring out how we do this. If we could just take what the 
Department of Interior has under the Park Service, and even 
that would be, those remote parks that you drive to.
    Mr. Gallegly made an interesting point. What about these 
western, drive-to parks. They don't have walk-in people in 
those areas. People that go in those areas do go in with a lot 
of money, pulling their Suburban with their Winnebago, and all 
that type of thing. And to think that they can't pay a few 
bucks is unbelievable.
    Yet, on the other hand, how do you handle it in a historic 
park, where there's no way to stop anybody from coming in. Then 
it becomes a rather difficult situation. So I worked with Mr. 
Regula on this first experiment. We may have to move along very 
carefully as we do this, but the input has been very valuable 
today, and I would hope we could all work together. And the 
next panels coming up, of course, will have some very 
interesting approaches to it. And that's all this is, is we're 
trying to figure out how to do this so it benefits the people 
in America.
    We hear a lot of folks say, doggone it, I pay my taxes, I 
shouldn't pay anything for these things. Well, that's kind of 
hard to believe in some instances, because other people who 
don't use them say, well why should I pay for them? So we find 
ourselves in kind of this interesting position.
    We do have a vote on. I do appreciate the excellent 
testimony from our first panel. I'll recess the Committee 
briefly. I would urge all members to come back, and I'll try to 
collect a few more, and we'll come right to the second panel as 
soon as we return. So we stand in recess.
    [Recess.]
    Mr. Hansen. [presiding] The meeting will come to order.
    We are happy that on our second panel we have Derrick 
Crandall, president of the American Recreation Coalition, 
Philip David Voorhees, Associate Director of Policy and 
Development, National Parks and Conservation Area, and our 
friend from Arizona, Gaylord Stavely, vice president, National 
Forest Recreation Association.
    It's always good to have you gentlemen with us. And 
Derrick, we'll start with you. Is that all right? You have all 
been here many times. You know the rules. Try to stay within 5 
minutes. We want your testimony, however.

 STATEMENT OF DERRICK CRANDALL, PRESIDENT, AMERICAN RECREATION 
                           COALITION

    Mr. Crandall. Thank you very much, Mr. Chairman. It's a 
delight to be here to talk about a topic on which you have such 
a strong and positive role. As you know, ARC represents a range 
of interests that include companies and associations 
representing the manufacturers of tents and motorhomes and 
canoes, bicycles and much more, as well as enthusiast 
organizations that represent millions of Americans involved in 
downhill skiing and camping and fishing and many other kinds of 
activities.
    In fact, fees were catalysts for bringing the American 
Recreation Coalition into existence in 1979. We've told you 
before that we would like to continue a policy of free lunch. 
However, we have learned that the free lunch comes with a 
price. It's hard to demand a great menu and top food when you 
are not paying the tab.
    We also understood that other consequences arise. We found 
that without paying we could not justify the demands for 
continued recreation excellence. We found that campgrounds in 
our national forests were opening later. And millions of people 
who came to use those campgrounds during the shoulder seasons 
found locked gates. We saw declines in the numbers of 
interpretive programs and declines in the quality of trails 
across this country.
    During the time of the President's Commission on Americans 
Outdoors the Nation engaged in a debate, and I believe we came 
to a consensus that while we shouldn't support the entire 
Federal recreation program on the basis of recreation fees, it 
was legitimate to look to the direct beneficiaries, those 
people who actually come to the public lands, for a greater 
share of the cost of providing those recreation programs.
    In fact, our studies show only about 26 percent of the 
American public visits a Federal recreation site of any type 
administered by any agency in any year. We heard that agencies 
had little incentive, though, to charge higher recreation fees, 
since the fees they now collected disappeared into a variety of 
special accounts in the black hole, and it left the Forest 
Service, the National Park Service, BLM managers on the ground 
unable to respond to a very simple question from the visitors: 
Where do our fees go?
    This Subcommittee provided leadership that ultimately was 
acted on by Chairman Regula to create the fee demonstration 
program that is the subject of this hearing. Its design work 
largely came through your work here in 1995 on your bill H.R. 
2107.
    In general, we believe that the fee demonstration program 
which resulted is laudable and has been successful. The report 
to the Congress on the first full year of the fee demonstration 
program displays a range of new approaches, which together are 
increasing recreation program budgets of four key agencies by 
some $150 million each year.
    For the first time Federal recreation program personnel now 
have the incentive to go out there and listen to their 
customers. As we've told you in the past, we support Federal 
recreation fee programs which meet five tests.
    First, fees need to be equitable. Second, the fee system 
itself needs to be efficient. Third, fees need to be convenient 
for the recreationist, and we've heard some concerns about that 
topic already this morning. Fourth, the fee system needs to be 
coherent, flexible and integrated. Finally, the fee revenues 
need to be returned to benefit the resources, facilities and 
programs utilized by those paying the bill.
    In general we find that the fee demonstration implemented 
by the four agencies have met these goals. We are excited about 
the use of the fee demonstration program, for example to 
preserve the lookout towers in western national forests--that's 
an exciting story that the Washington Post recently told--and 
to provide new interpretation services on the Pike, Arapaho and 
Roosevelt National Forests for families coming to cut their 
Christmas trees and finding a nice surprise, people who could 
share with them the learning opportunities that they could find 
as a family on the national forest.
    We find that effective fee programs will help Federal 
agencies become more consumer-focused, which is hard to 
accomplish when 95 percent of the budgets previously had been 
determined a year in advance here within the beltway.
    We are proud to say that ARC and the Recreation Roundtable 
are actively involved in providing guidance and advice to the 
Federal agencies across the country. We've provided top 
marketing and communications executives from Disney, REI and 
other companies to work with the Enterprise Forests in southern 
California, for example, and in developing communication 
efforts for dozens of Forest Service fee sites across the 
country.
    We also give our warm thanks to you and to Chairman Regula 
for upholding a commitment to making the fee demonstration 
receipts supplemental to the general appropriations for Federal 
recreation programs of the four agencies.
    But we can't praise the program in its entirety. We have 
several concerns. First, we believe that the program has 
several specific fee flaws that need to be rectified. Most 
reflect poor communications, but some have deeper roots. 
Second, we believe that there have been some outstanding 
innovation already by the agencies involved, but far more ideas 
and approaches can and should be tested.
    Let me just quickly run through some of our concerns. There 
is an inequity in fee collections going on out there right now. 
Those enjoying the services of outfitters, guides and other 
commercial services end up paying more, and more consistently.
    This is largely because they are already assessed a fee 
through the concession's special use permit on the agencies' 
part, as opposed to the non-outfitted guest on the national 
forest. Second, because they are identifiable through the 
commercial service they are universally assessed, whereas those 
coming on in a non-outfitted way are subject to the enforcement 
efforts of the Federal agencies and, frankly, oftentimes get a 
free ride.
    Our second concern involves use of the new fee 
demonstration authority in ways which undercut and jeopardize 
the operation of commercial providers on public lands. We have 
sparked the entrepreneurial fires of Federal employees 
throughout the Nation. We are finding, however, that sometimes 
this entrepreneurial spirit blinds the Federal agencies to the 
benefits of long-term partnerships with other agencies at the 
state and local level or with companies, for example those who 
are providing concession campgrounds and other kinds of 
services.
    We don't believe that the Forest Service should lose sight 
of the fact that even though they might be able to collect all 
the revenues from a Snowbird, it would make no sense for the 
Forest Service to try to operate a ski area like Snowbird 
directly.
    We think that our concerns are largely the result of a new 
tool being handed to Federal officials who are very hard-
pressed to meet growing and changing demands for recreation. 
They think of it, in many cases, of fees as a universal wrench 
able to fix all problems, and it is not.
    Thanks to you and to the Congress and to the agencies 
themselves, we know that providing high quality recreation in 
America will take a number of tools, including encouragement of 
volunteer efforts, use of funding from ISTEA and other kinds of 
Federal programs, partnerships with private sectors as 
concessionaires and special permittees, partnerships with 
states and local agencies in a wide variety of ways, corporate 
support through sponsorships and work with non-profit 
organizations.
    In general we believe that the fee demonstration program 
has already been a great success and deserves to continue for 
at least two more years so we can learn through the process of 
the projects underway. We think that there are some additional 
needs to develop a broad recreation strategy for the Federal 
agencies, and I want to encourage you to recommend to the 
agencies to do that.
    Among those lessons that still are unlearned would be use 
of differential pricing between peak and non-peak periods of 
the years, and linkages between the rich and the poor sites. We 
heard today, for example, evidence that some national park and 
some national forest areas will certainly be able to bring in 
enough revenue to run well the recreation programs at that 
site.
    However, there are other sites which will never be able to 
implement a strong fee program. There are ways, though, to link 
those. For example, to use an example here in Washington, we 
could reward volunteers working on the C&O Canal or on the mall 
here in Washington with free access to Shenandoah National 
Park. There are ways to combine this program with other 
mechanisms to increase overall the opportunities for recreation 
in this country.
    We heard repeatedly concerns about the social equity and 
whether local people or the economically disadvantaged are 
being priced out of our public lands. Certainly we don't want 
to see that occur. However, we now, under the fee 
demonstration, could see enhanced use of such devices as free 
access days, where we simply decide that during certain non-
peak periods families and individuals alike could come in 
without a fee as a way to encourage them to use their land.
    And there are other things in our testimony that we are 
suggesting. We appreciate the opportunity to do so.
    Finally, we would suggest just a couple of changes that you 
might well be able to work either with the Chairman Regula or 
through stand-alone authorization for this program coming 
through the Resources Committee.
    First of all, we would suggest strongly a prohibition on 
the use of the authority of the fee demonstration program to 
``replace, disrupt or jeopardize the provision of public 
recreation services on Federal lands by permittees and 
concessionaires.''
    Secondly, we would encourage new direction on the type of 
fee strategies to be tested during the demonstration period, 
including as I mentioned peak and off-peak pricing strategies 
to encourage volunteerism and free access periods.
    Third, a provision for modest growth in the number of sites 
permitted under the program. At this point the agencies are 
limited to no more than 100 sites. The Park Service has shown 
that they have 100 sites up and running right now and may 
deserve an increase beyond that.
    Fourth, a refocusing of the use of receipts in needed, 
because there is some concern about the need to show the public 
where their funds are going, and we've suggested some language 
that we think would help to encourage the visibility of use of 
the fees.
    And finally, we specifically endorse allowing inclusion of 
special use permit revenues as fee demonstration projects, and 
that has been addressed in questions of the previous panel. 
Such things as outfitter guide permits would be specifically 
allowed.
    We thank you very much for the time to be with you here 
this morning and look forward to working with you on this 
exciting program. Thank you.
    [The prepared statement of Mr. Crandall may be found at end 
of hearing.]
    Mr. Hansen. Thank you Mr. Crandall. Mr. Voorhees.

   STATEMENT OF PHILIP DAVID VOORHEES, ASSOCIATE DIRECTOR OF 
  POLICY AND DEVELOPMENT, NATIONAL PARKS AND CONSERVATION AREA

    Mr. Voorhes. Mr. Chairman, thank you very much for the 
opportunity to testify. Again, I know NPCA was before you just 
2 days ago testifying on the film fee matter. I appreciate the 
access they provide us.
    Since its initiation in 1996, the demonstration fee program 
has proven valuable by almost any metric that you want to use. 
It's brought more revenue into the national parks, and it has 
begun to educate park managers about the public acceptance of 
entrance and use fees, options for fee collections and the kind 
of collateral benefits that increased fee collections or fee 
collections of any kind can bring.
    The program has also been dynamic in raising a variety of 
issues that Congress should address once the program reaches 
its conclusion. Some of those issues include the appropriate 
method of interagency revenue-sharing, the appropriateness of 
specific types of use and entrance fees, the possibility of 
eventual fee caps and the distribution of revenues within the 
National Park Service.
    In my testimony today I want to limit my comments to the 
National Park Service fee program alone, inasmuch as we 
concentrate fairly closely on NPS.
    First, with regard to entrance fees, I think there's no 
question but that the public has been broadly accepting of the 
fees that have been raised at the 100 sites or nearly 100 sites 
that have been included in the demonstration fee program.
    Before the program began in 1995 NPCA conducted a national 
survey asking the question of the public's acceptance of fee 
increase. We found that 70 percent of those surveyed responded 
they were not opposed to an increase from an average, at that 
time, of $5 per carload for a visit of up to 7 days.
    A year later, still before the fee demonstration program 
began, we conducted another survey and probed a little bit more 
deeply into that, and I think the results here are telling. 
Based on per person rather than a per carload assessment, we 
asked at a variety of different levels what is the public's 
tolerance, if you will, to pay certain increases.
    We found that 56 percent of respondents would support an 
increase of $5 per person and as support gradually dropped to 
about 20 percent, that increase rose to about $10 per person.
    I don't think the specific dollar figures here have a 
tremendous amount of relevance because we are talking about 
apples and oranges and per person as opposed to per carload and 
such, but they do clearly show that there is a limit of public 
acceptance of fee increases, obviously the higher you go.
    So my question would be in this form, and I implore the 
Committee to consider how much is too much. Now in some 
circumstances in some parks the fees have been doubled or even 
tripled. In some circumstances that may be well be warranted, 
but there clearly are limits. And as the Committee considers 
where to go next with regard to the fee program, I think that 
close consideration ought to be given to exactly what are the 
upper limits.
    Now use fees might be in some circumstances a little bit 
different kind of situation. There have been circumstances in 
the Park Service's program in which use fees have met somewhat 
more limited acceptance.
    I think the best example is the private boater fees at the 
Grand Canyon, and the Private Boaters Association is going to 
be here testifying I am sure to that effect today where 
currently, I believe, before you even dip an oar in the water, 
if you are a private boater and waiting an average of 8 years 
to get on the river, you pay $200 in waiting fees, if you will, 
while you are waiting and then another $100 before you get on 
the river. So before you ever dip an oar in the water you've 
paid $300 for the privilege of getting on the river.
    That seems a little bit excessive. I don't necessarily want 
to damn the Park Service for exploring this kind of exercise, 
this kind of use fee, because I think that's exactly the 
purpose of the demonstration fee program, to specifically 
explore the parameters of what the public acceptance is and 
what kinds of fees should and shouldn't be charged.
    I just would say that as the Committee moves forward with 
its consideration of how the fee program has been moving along, 
they should look closely at examples of excess and provide some 
moderation where it's warranted.
    Given the fact that there are clearly some hitches if you 
will as the fee program progresses, I wonder if the length of 
time that's been allowed the demonstration program to lay out 
or to roll out is really adequate. NPCA would ask that the 
Committee consider extending the program for perhaps another 5 
years and in fact broadening the scope for the Park Service 
beyond the 100 units that are now authorized to include all 
units.
    Now that doesn't mean that I am saying all units should 
charge fees, but rather the Park Service should be given the 
authority to extend it to any and all units they see might 
work. That way you can develop a much more sophisticated 
baseline, again, of what is and isn't appropriate, what is and 
may not be the levels of public tolerance for fees in specific 
circumstances before the Congress steps in and makes the 
program permanent.
    Another question is distribution of fees with the Park 
Service. There are a limited number of sites that have had 
spectacular success in the fees that they've raised. In fact 
the Grand Canyon again is a good example in which the fees they 
have collected have exceeded their operations budget. Now 
that's fairly alarming notation. I think there might be others 
here today who would say, ``Well why not cut them free and let 
them float and not support them with tax revenues?''
    I would say that for those folks who would make that 
argument that they look at the purpose of the fee program which 
is to address the backlog. In the Canyon alone the backlog for 
maintenance and infrastructure exceeds $15 million, which if 
you never added to the backlog would take 10 years to resolve 
given the current fee stream.
    On the issue of additional of additional research, the Park 
Service constructed the program as it is essentially in going 
out to the units that were charging fees now and gave them an 
open question as to how they should proceed.
    Before the Congress makes this a permanent program I would 
implore that they ask the Park Service to do some more 
sophisticated analysis, which would explore what are the limits 
of public acceptance but also what are the limits of fee 
collection at which you start to have some demographic impacts 
on who can and cannot go to the national parks.
    In no circumstances should we construct a fee program that 
would affect the demographics and affect the willingness of 
anybody in America to go and use the national parks, no matter 
what their economic or social mean.
    Lastly, I'd like to say that public fees, use fees, 
entrance fees are really only a part of the equation. The Park 
Service certainly is facing a broad number of financial issues 
and has for quite some time. Public fees are a part of that. 
When the issue of raising entrance fees and use fees was first 
considered in the Congress some years ago, we came and said 
then that private fees have to be a part of this. When I say 
``private'' I mean concessions fees, filming fees, which the 
Committee is now addressing.
    In the last Congress we again came close on the issue of 
concessions reform, and I think--and I hope--that before the 
Congress moves any further with more public fees or raising the 
public fees or making the program permanent, that we would 
again sit down and finally resolve the issue of concessions 
reform.
    With that I'd like to conclude my comments with one final 
caveat. It has been expressed before here, and that's that the 
Committee always keep a close eye on the fact that these fees 
should remain supplemental and not supplant existing 
appropriated funds. I think there's broad recognition on the 
part of the Committee and I believe on the part of the 
Congress, but I think that there's reiteration.
    With that I'll conclude. Thank you very much for the 
opportunity.
    [The prepared statement of Mr. Voorhes may be found at end 
of hearing.]
    Mr. Hansen. Thank you. Appreciate it. Mr. Stavely.

 STATEMENT OF GAYLORD STAVELY, VICE PRESIDENT, NATIONAL FOREST 
                     RECREATION ASSOCIATION

    Mr. Staveley. Thank you, Mr. Chairman. Thank you for the 
opportunity. The National Forest Recreation Association 
represents private sector business persons who own or operate, 
developed sites such as resorts, lodges, pack stations, 
campgrounds and marinas on the national forests for the use and 
enjoyment of the public. Those include both public and private 
facilities.
    There are by Forest Service count some 1,700 private 
businesses on the forests. Overall they have a multi-billion 
dollar investment in structures, facilities and equipment used 
to serve the visiting public; and they contribute millions of 
dollars in privilege fees to the Federal treasurer every year.
    NFRA's interest in the recreation fee demonstration program 
springs from harmful effects the program has already had on a 
number of these businesses and could have on them and others in 
the future. NFRA is not presently opposed to the recreation fee 
demonstration idea. It may be good for a recreation-managing 
agency or a unit of that agency to have more than one source of 
revenue, and it's certainly not unfair to ask a visitor to pay 
for the use of a facility or an amenity on a national forest.
    We do however strongly object to the use of fee 
demonstration projects to harm, displace or subrogate 
concessioner operations. There has for some time been a faction 
within the Forest Service that advocates taking back the 
visitor services, both public and private, that have been 
concessioned out to the private sector, believing that the jobs 
and revenues at those sites would then go to Forest Service 
employees. Some in the agency now see fee demonstration as an 
income base for taking back those sites and have begun using it 
that way.
    During the first year we've seen fee demonsatration used to 
displace or subrogate concessioned operations in a number of 
ways which include the following: The stripping, shortening or 
otherwise changing of an existing permit (for which the Forest 
Service euphemism is ``permit renegotiation,'') refusing to 
renew a permit for which there is a pattern of past renewals, 
setting a new fee and taking the revenue from it while shifting 
its related maintenance costs over to a concessioner, 
pressuring the concessioner to manipulate concession fees up or 
down so the Forest Service fee will seem less objectionable or 
more affordable.
    Many Forest Service field employees ignored the parameters 
of the 1996 fee demonstration authorization. A year ago the 
Chief of the Forest Service was finding it necessary to issue a 
letter to his regional foresters prohibiting displacement of 
concessions based on recreation fee demonstration projects.
    The Chief's letter notwithstanding, new instances of fee 
demonstration impingements on concessionaires continued to be 
reported throughout the summer of 1997. By September there was 
sufficient concern in the Senate that in a September 18th 
Colloquy on the Senate floor Senator John Kyl said that, ``at 
some fee demonstration sites there appears to be an intent to 
discontinue reliance on the private sector for delivery of 
recreation goods and services.''
    Senator Larry Craig cited a new Heritage exhibition program 
that essentially puts the Forest Service into the outfitter 
guide business. Senator Slade Gorton reiterated that 
``concessioner displacement was not an intent of the fee 
demonstration program.''
    Toward the end of the last session an amendment to the 1988 
Appropriations bill was being discussed, to assert the 
parameters of fee demonstration. The Forest Service opposed 
that amendment on the grounds that they don't want to 
relinquish their authority to take back concessions.
    Mr. Chairman, in summary, not enough is yet known about how 
or whether fee demonstration funds and appropriated funds can 
be blended to assure the continued availability of safe, 
enjoyable visitor services on the Federal lands. More 
demonstration is needed that the fees will be used for resource 
protection and maintenance and not as a Forest Service jobs 
program. More assurances are needed that the Forest Service 
cannot use the fee demonstration program to damage, displace or 
compete with its concessionaires.
    If fee demonstration were permanently authorized and then 
at some point the Administration or the Congress were to renege 
on earlier promises and treat locally collected fees as an 
appropriation offset, we believe the Forest Service would then 
feel they have a legislated license to extract as much money as 
possible from concessionaires without regard for the ability of 
the private sector to pay those fees and still continue to 
provide safe facilities and quality service.
    The Forest Service needs private sector business and 
financial help and is likely to need them increasingly in the 
future. Fee demonstration was sold to the concessioner 
community on the basis that it would provide new flexibility to 
the agencies and attract more private investment to the 
improvement of recreation and visitor facilities and services 
on the public lands.
    The effect of fee demonstration thus far has been to 
discourage private investment and employee tenure at national 
forest recreation sites. We would like to see the fee 
demonstration program or something like it succeed, but we urge 
that it not be permanently authorized at this time or without 
legislated direction.
    Thank you.
    [The prepared statement of Mr. Staveley may be found at end 
of hearing.]
    Mr. Hansen. Thank you. I appreciate the excellent testimony 
from all three of our panelists. I do have some questions, but 
we've go two more panels to go. We may submit those to you if 
that's alright. We'd appreciate a response from you. We'll 
thank you and excuse you from the front table there in terms of 
our next panel.
    Mr. James D. Santini, a former Member of Congress from the 
National Tour Association; Craig Mackey, Public Policy Liaison, 
Outward Bound; Mary Margaret Sloan, Conservation Director of 
the American Hiking Society and Holly Fretwell, Research 
Associate, Political Economy Research Center.
    If you folks would like to come up and take your places, 
we'd appreciate it. We appreciate your being with us. Do your 
best to stay within your time, I'd appreciate it if you could. 
We are going to run out of time for this room, which has got me 
a little concerned.
    Our former colleague, Mr. Santini, it's good to see you. 
We'll start with you. Is that all right?

 STATEMENT OF JAMES D. SANTINI, WASHINGTON DC REPRESENTATIVE, 
    NATIONAL TOUR ASSOCIATION AND FORMER MEMBER OF CONGRESS

    Mr. Santini. Thank you, Mr. Chairman. I'll do my best. I 
adhere to the same clock that Mr. Crandall was speaking to. I 
offer this testimony on behalf of the NTA, a Lexington, 
Kentucky-based international package travel association of 627 
companies.
    Over the last 2 years--I should say probably 12 years--NTA 
has been working closely with the National Park Service to make 
demonstration fee programs and public-private cooperation a 
success.
    Most of our associations' tour operator members regard the 
national parks, historic, heritage sites as lifetime 
experiences for their group clients who are traveling together 
for economy, efficiency, security and social interaction. That 
is the basis of packaged travel. For many of America's senior 
citizens and school-aged travelers, this is the only way they 
will ever be able to share the natural and historic wonders 
offered by park destinations.
    NTA membership also includes 850 local, state, provincial, 
destination marketing offices, the convention and visitor 
bureaus; and 2,255 tourist suppliers that include attractions, 
hotels, motels, restaurants, bus companies, airlines and 
receptive operators.
    In the 1996 Davidson-Peterson Association economic study 
packaged travel industry generated over $11.6 billion to the 
U.S. economy, of which $9.6 billion was spent at the local 
level.
    Today, Mr. Chairman, NTA will respond to your request for 
oversight commentary on the demonstration fee program. At the 
outset we applaud the innovative attempt by the U.S. Congress 
to create opportunity for public land agencies to apply on-the-
ground, real world experiences in crafting the greatly expanded 
entrance and use fee program.
    Since the adoption of the fee demonstration program it has 
been NTA's predominant experience that the National Park 
Service has established an agency policy to do whatever it can 
to make the congressionally mandated fee demonstration program 
succeed.
    Regrettably NTA cannot express the same positive experience 
with the United States Forest Service during this same 
demonstration fee period.
    At the Committee's May 11, 1995 hearing on recreation fees 
on public lands, NTA's President, then Secretary-Treasurer, 
Keith Kerfall enunciated four basic appeals to the National 
Park Service in adopting any kind of fee program.
    First, there should be equitable fee comparison between the 
individual and commercial group visitor. Second, Kerfall 
pressed for adequate notice because most tour operator's 
package 12 to 18 months in advance. Third, NTA urged the 
opportunity to be heard for all impacted individual, group, and 
recreational park visitors before the fee is adopted. And 
finally, Kerfall appealed for uniform commercial and business 
use fee structures throughout this 370-plus units of the 
national parks.
    From the industry's initial commercial fee crisis of 
September 19, 1994 in which the National Parks Conservation 
Associates incidentally an ally in resolution, to the Yosemite 
National Park use permit panic of March 1995, the National Park 
Service has made constructive efforts to respond to NTA's basic 
fee fairness concerns.
    This ongoing communication culminated in the December 1996 
announcement of the individual and commercial visitor fee 
program. With that fee program there was certainly an attempt 
to establish equity or parity as between the individual 
visitors and all other users of the national parks. There was a 
12-month deferred period to enable the tour packager to catch 
up with the impending increase in fee. And while all problems 
with demonstration fee programs have not been ironed out, all 
parties have experienced substantial progress toward the 
practical implementation of the public-private goal.
    Further, the National Park Service took the NTA 1995 plea 
for park uniformity seriously and established the--tier 
structure system. Our park partnership interaction continues 
with meetings that continue this last month in Phoenix--Another 
meeting in the upcoming month in Phoenix--to work out some of 
the park fee problems at the Grand Canyon National Park, as 
between the various tiers of commercial entrants.
    Mr. Chairman, you asked me to address another realm of less 
successful fee demonstration resolution with the ill begotten 
air tour commercial fees at Grand Canyon, Haleakala and 
Hawaiian volcanoes. These fees were adopted without any 
industry opportunity to be heard or even Park Service support 
testimony by the former National Park's authorizing committee 
in the 1993 budget reconciliation Act.
    I have included in my testimony, Mr. Chairman, an 
enumeration of all the fees that are presently being paid as a 
consequence of operating an air tour to and from the Grand 
Canyon. The cost per visitor is anywhere from $20.35 to $24.13, 
which is double the comparative cost for any other park 
entrant. The largest percentage, 70 percent estimate, air tours 
do not land and take off from NPS ground. There is a 
comparative user inequity for the air tour fee.
    The air tour viewer utilizes no services, receives no 
direct benefit of any kind. The air tour leaves no footprints, 
sandwich papers or evidence of restroom use at the Grand Park 
or the Hawaiian Park. It is without a question one of the most 
environmentally sensitive ways for a disabled, physically 
limited, time-constrained visitor to see the aerial grandeur of 
both the Grand Canyon and the Hawaiian parks.
    There is no precedent for an entrance fee for only visual 
appreciation of a national park. There is a fleeting air noise 
impact that has almost been totally eliminated by Public Law 
100-91 and SFAR 50-1. This is proven by the 1993 Park Service 
survey in Grand Canyon National Park. Ninety-five percent of 
the ground visitors reported no aircraft noise from whatever 
source. Interference with their park experience in 1996--only 
25 written complaints out of 5 million park visitors about 
aircraft noise from the plane.
    At least to date no other Federal agency has attempted to 
start taxing airspace users for sound impacts. With your 
direction and reinforcement, Mr. Chairman, I believe we can 
find a sensible resolution to the 1999 National Park 
authorizing legislation.
    Finally, again, speaking to the overall program, Mr. 
Chairman, the NTA applauds this unprecedented opportunity to 
work together with all the land management agencies. We hope 
you will authorize this partnership problem-solving program for 
at least 2 more years beyond the 3-year termination date for 
the existing program.
    Thank you for the opportunity to share my experiences and 
recommendations with you, Mr. Chairman.
    [The prepared statement of Mr. Santini may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. Mr. Mackey.

STATEMENT OF CRAIG MACKEY, PUBLIC POLICY LIAISON, OUTWARD BOUND

    Mr. Mackey. Good afternoon. I represent Outward Bound USA, 
which is a non-profit educational institution and a leader in 
wilderness and experiential education.
    For 37 years Outward Bound has had the privilege of 
conducting extended back country expeditions to teach 
leadership, self-reliance and wilderness skills.
    Quite simply, parks, public lands and wilderness are our 
classroom. The Outward Bound system in this country has five 
wilderness schools and two urban centers. With operations in 25 
states and on scores of Federal resource units, we witness the 
fully array of agency policies, procedures and fees.
    I represent a leader in wilderness education. I also speak 
to you as an outfitter. Outward Bound and other leading 
educators such as Wilderness Inquiry and the National Outdoor 
Leadership School (NOLS) operate as full commercial users of 
the public land.
    In my comments I will address our support for fees and 
Outward Bound's experience with fees in the fee demonstration 
experiment, including the issues of multiple fees, notification 
on fees, consistency of fees, and the need for equitable fees.
    On our support for fees I'll be brief. Public lands, as I 
said, are our classroom. Outward Bound pays fees, probably more 
fees on more units than any single entity in the country. We 
recognize the need for and the merits of proper administration 
and maintenance of our public resources.
    That is why outdoor groups such as Outward Bound, NOLS, the 
Outdoor Recreation Coalition of America, and others supported 
the fee demonstration program.
    To talk about the Outward Bound experience with fees, I'll 
touch on four issues. First, multiple fees. Fee demonstration 
has quite simply produced fees upon fees. The most I've seen 
paid on a given unit is five. Four is not uncommon. The usual 
suspects--franchise fees, back country and camping fees, 
entrance and trail head fees, parking fees and per-head-per-day 
fees. For each fee the time, point or method of collection may 
vary.
    Also, as fees increase, we need to remember and ensure that 
our Federal lands remain open to all economic classes among the 
public.
    The second issue I would mention is notification. When you 
think of outfitters, think of small business. We set budgets, 
establish costs, market and advertise. At Outward Bound our 
catalogs go out a year in advance. The competition is quite 
simply brutal.
    In one national park we are staring at a new fee that will 
increase Outward Bound's costs from $303 in 1997 to over $7,000 
this summer. The fee is proposed to start in May. As of this 
testimony today we have no written notification from the Park 
Service.
    In another example, both Outward Bound and NOLS have had a 
van-load of students stranded outside an entry station while 
our field instructors located cash to pay a new or increased 
fee.
    The third issue is consistency within each of the agencies. 
The discrepancies in how fees are calculated, assessed and paid 
are dizzying. One unit requires a single permit and a single 
fee for sea kayaking, mountaineering and ice climbing 
activities. Another unit will charge a separate fee for each of 
those activities.
    The fourth issue I would mention is equity. And here I'll 
highlight compliance. Focus on Outward Bound for a minute as a 
back country user. Our students comply with fees at a rate of 
100 percent. In the case of the BLM and Forest Service, other 
back country users typically pay no fees or only voluntary 
fees. This includes the public and most institutional groups 
such as scouts, church groups and university programs.
    If fees are the future, will the agencies find the 
resources to monitor and manage dispersed recreation such as 
Outward Bound's use or will the outfitter continue to carry the 
load? If fees are indeed the future, fee demonstration must 
answer these and other fundamental questions.
    In fee demonstration there have been successes. Public 
acceptance is higher where fees are equitable, stay with the 
resource and the results from agency-reinvestment are tangible. 
We know the Park Service is issuing directive to eliminate some 
of the duplicative fees that I talked about, and local Forest 
Service staff revamped a significant per-head-per-day-fee in 
the boundary waters based on public and outfitter input.
    In summary, Mr. Chairman, many questions remain. Outward 
Bound is here today in support of fees and in support of the 
fee demonstration experiment. Outward Bound would recommend 
that this experiment run its course. It's too early to make the 
program permanent based on 1-year's performance, and we'd ask 
that oversight activities such as this hearing today and the 
report that was submitted on January 31, continue.
    And in the future at the appropriate date Outward Bound and 
other members of the outfitter community would be happy to sit 
down with members of this Committee and help draft permanent 
fee legislation.
    Thank you for the opportunity.
    [The prepared statement of Mr. Mackey may be found at end 
of hearing.]
    Mr. Hansen. Thank you. Mary Margaret Sloan, you have the 
floor.

   STATEMENT OF MARY MARGARET SLOAN, CONSERVATION DIRECTOR, 
                    AMERICAN HIKING SOCIETY

    Ms. Sloan. My name is Mary Margaret Sloan, and I am the 
conservation director for American Hiking Society, a national 
nonprofit organization serving 10,000 individual members and 
the more than 500,000 members of our 120 affiliated clubs.
    American Hiking supports the current recreation fee 
demonstration program for a number of reasons. Revenues stay in 
the unit, the oft-stated intent that appropriations will not be 
offset by the fees, and because the fees address the enormous 
need for on-the-ground funding. However, it is our opinion that 
the demonstration program is not being implemented with 
uniform, good success.
    The purpose of the demonstration program is to encourage 
the land management agencies to creatively implement different 
fee collection projects. Some of these projects are just now 
getting underway. We have not had an opportunity to adequately 
evaluate the effectiveness of the fees or how the agencies are 
spending their revenues. We urge the Subcommittee to let the 
demonstration program run its course and wait until 1999 or 
beyond to propose a permanent program.
    In order for this Subcommittee and the Congress to create a 
successful and positive recreation fees program, the concerns 
of hikers and other recreationists paying the fee should be 
carefully considered. To that end, American Hiking suggests 
several principles which can contribute to a successful 
program, some of which are a part of the current demonstration 
program and some which should be added or changed.
    First, the fees must be fair and equitable and not prohibit 
anyone from visiting our public lands. Second, the fee 
collection must be convenient and not unduly interfere with the 
recreation experience sought by the park visitor. Third, any 
fee system must consider and encourage park volunteers, and 
fourth, the legislation should clearly state that fee revenues 
should not offset general appropriations.
    Fees which are assessed against the general public for 
parks and forests must be fair and equitable. Multiple layers 
of fees are onerous and may discourage lower-income Americans 
from visiting our public lands. I have excerpted a letter from 
an AHS member from Austin, Texas, and I quote:

        ``May 8, 1997. Perhaps you can't be of help, but I just 
        need to know what can be done, if anything. During the 
        first week of June 1997, I'm taking my oldest daughter, 
        her husband, and six of their children to the Grand 
        Canyon. My daughter is a cafeteria aide and her husband 
        is a porter at a local car dealership. These are 
        obviously low-income people, and it's because of my 
        determination that they're going on this trip at all. I 
        have already paid $60 for two campsites at Mather 
        Campground at the Grand Canyon, but I am hoping there 
        is not an additional entrance fee or per-person fee 
        like I read. Since I'm also planning on taking them to 
        the Petrified Forest and Painted Desert, and possibly 
        some other natural parks and monuments on the way there 
        and back, including Carlsbad Caverns and Guadalupe 
        Mountains, this means additional entrance fees, et 
        cetera. At any rate, all of these entrance fees will 
        take a heavy toll on my daughter and her husband.
        ``Is there anything you can advise me to do to help cut 
        the expense of this family vacation? We had started 
        planning this last year, well before the demonstration 
        fees were mentioned, and my children were rather 
        discouraged when they took effect.''
    That's the end of the letter.
    Because of the cumulative fees, this woman did not take her 
grandchildren to the Grand Canyon in 1997. This letter 
demonstrates the need for more sensitivity to those who are 
less well off. Even so, this woman's complaints transcend 
income. Simplicity and affordability should be the order of 
business for the Federal agencies. Fees, particularly in 
popular parks like the Grand Canyon should be re-evaluated for 
their impact on lower-income communities.
    Entrance and user fees should be reasonable and convenient 
and unobtrusive into the hiking and trail experience. Fees 
should apply to as wide an area as possible. Regional or 
statewide fees are optimal.
    In November 1997, the Mountaineers, a 15,000-member outdoor 
recreation and conservation group based in Washington State, 
hosted its second annual user fee conference. Attendees voiced 
strong support for a regional fee requirement. They also 
complained about the current multiplicity of user fees, with a 
different sticker required for every trailhead, which leads to 
frustration, makes compliance difficult, and will likely result 
in keeping all but the wealthiest citizens off of public lands.
    All of the land-managing agencies should actively cultivate 
and pursue volunteers as one way to offset budget shortfalls 
and to generate public support and goodwill.
    May I have one more minute to conclude?
    Last year, the USDA Forest Service issued a forestwide 
memorandum encouraging the forests to work closely with current 
volunteers when implementing a new fee, and also to use fee 
waivers to encourage increased volunteerism. American Hiking 
thinks fee waivers for on-the-ground volunteer work will prove 
to be a useful tool for the forests.
    American Hiking Society feels quite strongly than any 
revenue generated from the fees should not be used to offset 
appropriations. We hope that this intent will be made clear and 
prominent in any recreation fees legislation.
    Thank you for the invitation to testify. I look forward to 
answering any questions the Subcommittee may have.
    [The prepared statement of Ms. Sloan may be found at end of 
hearing.]
    Mr. Hansen. Thank you.
    Our next, Holly Fretwell, we turn the time to you.

  STATEMENT OF HOLLY FRETWELL, RESEARCH ASSOCIATE, POLITICAL 
                    ECONOMY RESEARCH CENTER

    Ms. Fretwell. Thank you. First, I'd like to commend 
Congress for creating the fee demonstration program. It is a 
great step toward self-sufficiency in our popular national 
parks. The program has already generated in excess of $45 
million for selected national parks. These parks have been able 
to keep 80 percent of the new fee revenues. New legislation 
offers even greater potential for self-sufficiency by allowing 
participants to retain 100 percent of fee revenues.
    I'm here today to urge Congress to make additional reform, 
so that our popular parks can become totally self-supporting, 
at least operationally. Why self-supporting? Requiring parks to 
be self-supporting will motivate managers to create more 
services for visitors, maintain our parks in better condition, 
and importantly, to become financially responsible in this 
process. Right now we have very little incentive for financial 
responsibility at our parks. Exorbitant spending for our 
employee housing and $330,000 outhouses are simply two examples 
of wasteful spending in our parks.
    It's not very well-known, but our early national parks were 
created on the premise that they would be operationally self-
sufficient. In 1916, five of our national parks, indeed, were 
operationally self-sufficient, with fee revenues exceeding 
operating expenses.
    Here are some of the remaining shortfalls that stand in the 
way of our parks to become self-sufficient:

    First, only one-fourth of our parks are now part of the fee 
demonstration program. There are a lot more parks that could be 
added to this.
    Second, despite the recent fee hikes, entrance fees are 
still unrealistically low in many parks. For example, the 
Golden Eagle Passport costing only $50, allows a carload of 
passengers to enter as many national parks as they like, as 
many times ad they like in a single year. This fee could be 
considerably higher. The Golden Age Passport allows senior 
citizens the same right. It costs them only $10 for an entire 
lifetime. Now this is a group that is being subsidized greatly 
here, and I do believe they are capable of paying at least a 
reasonable fee.
    Entrance fees at Yellowstone and Yosemite are still fairly 
low, even with the fee demonstration program. It costs only $20 
for a family of four to visit Yellowstone for seven consecutive 
days. In comparison, that same family would pay $40 to visit 
Disneyland for a single day, and they would pay an equivalent 
or more than the $20 to see a movie for a day--or for several 
hours at that. Changing fees in our parks to reflect market 
prices would not only raise revenues in our parks, but it would 
also begin to address some of the overcrowding problems that 
plague our national parks.
    Third, we need stronger incentives for park managers to 
spend funds wisely. Presently, managers are motivated to spend 
all the funds they are allocated. We could change this 
motivation by allowing cost savings to remain as a future 
budget enhancement in our parks.
    Our State parks are a great example and show us self-
supporting parks are a realistic goal. There are now 16 State 
parks that generate more than half of their operating costs 
from user fees. New Hampshire and Vermont are 100 percent self-
sufficient in their park operations. Dramatic changes have 
taken place in many parks. Texas and California, for example, 
have encouraged increased fee revenues and budget cost savings. 
State parks are becoming better stewards of the land, and they 
are responding to visitor demand. Many parks are making greater 
efforts to manage the resource amenities.
    Thanks to Congress, the National Park Service is making 
progress for autonomy at selected national parks, but further 
changes are, indeed, needed. I recommend the following:

    Congress should begin by holding appropriations to 
individual parks at current levels. Future budget increases 
would come from higher revenues and cost savings. Congress must 
allow managers to institute their own fees, taking into account 
rising demand and park resources. This could address some of 
the facts we've discussed today, such as resident and 
nonresident fees and peak-season and shoulder fees.
    Congress must also allow park managers to keep all costs 
savings as an enhancement for subsequent year's budget. For 
responsible capital spending, each park should have a park 
endowment fund. This could be spent at the discretion of park 
management for capital maintenance and improvement. Funds could 
come from a portion of concession receipts or user fees or 
private investment in the form of bonds.
    Again, I would just like to reiterate that allowing parks 
to be self-supporting motivates managers to respond to park 
visitors and park resources, and at the same time it encourages 
fiscal responsibility.
    Thank you so much for allowing me the opportunity to speak 
today.
    [The prepared statement of Ms. Fretwell may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    The gentlelady from Idaho.
    Mrs. Chenoweth. I have no questions, Mr. Chairman.
    Mr. Hansen. Thank you. That was very interesting testimony. 
I'd be very curious how we would work that endowment fund. 
We've thought about that around here a few times.
    I have a few questions, but I'm supposed to get out of this 
room in a little while. So if it's OK with everybody, I'll 
dismiss you and move to the next panel.
    Panel No. 4: Mr. Bachrach, Mr. Dingman, and Mr. Coyne. 
Would they all come forward, please?
    Is that right; is it Bachrach?

  STATEMENT OF JOHN CHRISTOPHER BACHRACH, TREASURER AND BOARD 
        MEMBER, GRAND CANYON PRIVATE BOATERS ASSOCIATION

    Mr. Bachrach. Bachrach.
    Mr. Hansen. You're first.
    Mr. Bachrach. I've heard way worse.
    Mr. Chairman, thank you for this opportunity to share our 
thoughts on the demonstration fee special use cost recovery 
programs. My name is John Bachrach, and I've come from 
Flagstaff to represent the Grand Canyon Private Boaters 
Association. We are a 501(c)(3) nonprofit corporation that was 
formed in 1996 to give a voice to the private, noncommercial, 
or self-guided river-running population who, until now, have 
had no voice in Park Service policy matters that affect the 
boating community.
    Briefly, I will outline the fees a person must pay in order 
to conduct or participate in a private, self-guided river trip 
on the Colorado River. These fees include two different 
authorities: cost recovery and fee demonstration.
    First, the cost recovery program: In order to be accepted 
onto the Grand Canyon National Park's wait list, you must pay 
$100. Then

to remain on this list until your turn has come up, you will 
have to pay $25 per year. The current wait is likely to be 18 
years. Therefore, you will pay a total of $550 before you ever 
see the river. When you're finally able to launch, you'll pay 
another $200.
    Second, the demonstration fees: Under this authority, you 
and each participant in your trip will pay $10 for entry into 
the park and $4 per night for every night spent in the park. 
Combined, these river-running fees constitute a 1,200 percent 
increase and were implemented with no public input.
    Before the Grand Canyon Private Boaters Association could 
support continued advocation or further expansion and 
implementation of the fee demonstration program, we would need 
to be assured that the program meets several important 
criteria. They are as follows:

    One, fees must be applied equitably and fairly to all 
persons, businesses, and corporate entities engaged in similar 
activities on America's public lands.
    Two, fees must not be used as a tool to limit access to 
America's public lands or waterways.
    Three, fees must be consistent in both their assessment and 
administration.
    As a group, we are very concerned that the fee 
demonstration program does not currently pass any of these 
fairness tests. In the case of the Grand Canyon River-running, 
fees are not presently applied fairly to all users engaged in 
similar activities. Most of our members and the private boaters 
we have surveyed have no objection to paying their fair share 
of the park's operating costs. In contrast to the collected 
noncommercial fees, fees paid by the commercial outfitters are 
not used to recover the Park Service's management expenses. 
Outfitters pay franchise fees, and in the case of the Grand 
Canyon, river-runners pay--river outfitters pay into the 
Colorado River Fund. Neither of these is used to offset river 
operations costs.
    Consequently, outfitter patrons pay no fees directly to the 
park. A system that provided for the commercial patrons to pay 
the same fees for similar uses as the self-guided, in our view, 
would be a fair system.
    The imposition of fees has apparently been used as a tool 
to limit access for the private boater in the Grand Canyon. The 
Department of Interior's press releases assure the public that 
they would be involved in the development of the fee 
demonstration program process, but as far as the Grand Canyon 
is concerned, not one public hearing was conducted before the 
announcement and implementation of the new fee structure. This 
sudden and enormous fee increase took the boating public by 
surprise and resulted in slowing the growth rate of the park's 
wait list by 30 percent.
    In 1998, for the first time in the history of the Colorado 
River running, the total number of hopefuls on the wait list 
declined by more than 1,000. This is the number of people out 
of 6,000 who did not renew their names on the waiting list. If 
the point of raising the price was to discourage self-guided 
use of the Canyon, then the fee demonstration program has been 
a success.
    The long wait, coupled with the high fees, has nurtured the 
feeling among the river community that the annual fee is 
actually a penalty meant to discourage them from future 
participation. Current and former Park Service employees at the 
Grand Canyon have stated that they felt fee demonstration 
charges were being used to curb the growth of the park's 
private boating wait list. Park staff had calculated an 
attrition rate of up to 30 percent for the noncommercial 
boating wait list.
    The current fee demonstration program is inconsistent and 
unfair when compared with other fee programs imposed on public 
lands. Comparing the use of public lands by cows to humans 
would seem ridiculous, but those of us living in the West know 
from simple observation that overgrazing by itself causes more 
damage to the resources in question than wilderness use by most 
humans. Boaters and hikers are now paying $4 per night for 
every night they spend in the Grand Canyon. Presently, it costs 
less than $10 for a cow to spend a year in the wilderness. This 
comparison looks even more extreme when fitted into the larger 
picture that includes annual fees for mining, logging, and 
other resource-consuming activities that take place on public 
lands.
    Additionally, we are concerned with the classification of 
river-running at Grand Canyon National Park as a special use 
and the precedent that special use classification may set for 
other low-impact, human-powered activity on public lands. 
Because Grand Canyon National Park has classified noncommercial 
river-running as a special park use, the park attempts to 
recover 100 percent of the cost of managing this use, in 
contrast to other park activities, which receive almost all 
their funding from the park's general fund.
    Special park use includes activities that are outside of 
the normal range of activities in a park--for example, holding 
a wedding ceremony or filming a movie. Historically speaking, 
one of the first uses of what eventually became Grand Canyon 
National Park began with river-running and a character named 
John Wesley Powell. A river trip on the Colorado is a special 
experience for sure, but river-running is definitely not 
outside the normal range of activities in the park, and 
therefore, we feel that it is not a special use.
    In closing, before private boaters can support the fee 
demonstration program, we need to be sure that the criteria for 
fairness is in place. We once again submit the following as 
guidelines:

    One, fees must be applied fairly to all users engaged in 
similar activities.
    Two, fees must not be used as a tool to limit access.
    And, three, administration of fees must be consistently 
assessed to all resource users.
    We sincerely thank Representative Hansen's office for this 
opportunity to present our perspective.
    [The prepared statement of Mr. Bachrach may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. That's an interesting 
comparison you had there.
    Mr. Bachrach. Thank you.
    Mr. Hansen. Mr. Dingman?

STATEMENT OF ROBERT DINGMAN, AMERICAN MOTORCYCLIST ASSOCIATION, 
                         WASHINGTON, DC

    Mr. Dingman. Mr. Chairman, my name is Robert Dingman, and 
I'm the Washington representative of the American Motorcyclist 
Association, an organization with over 222,000 motorcycle 
enthusiast members. I have a written statement, which I will 
summarize, and ask that it be included as part of the official 
hearing record.
    Derrick Crandall discussed five essential principles which 
must be contained in any recreation fee proposal. We would like 
to lend our voice to the call for a fee program which contains 
those elements.
    Many of the fees imposed under the recreational fee 
demonstration program, however, have not met the essential 
criteria that the fees be coherent and integrated. My comments 
pertain specifically to the U.S. Forest Service and the Bureau 
of Land Management, as the other agencies don't provide 
recreational opportunities for off-highway vehicle enthusiasts.
    Several States have for many years had user fee programs 
that are funded by the payment of registration fees for off-
highway vehicles, and a small percentage of State motor fuel 
tax, which are returned in the form of grants to various land 
management entities, including Federal land management 
agencies, for the development, operation, and maintenance of 
recreational facilities.
    For example, as Mrs. Chenoweth already mentioned, the State 
of California has perhaps the best-known such program, which is 
commonly referred to as the Green Sticker Program, named for 
the registration sticker required on vehicles ridden in areas 
funded by the program.
    Both the U.S. Forest Service and the Bureau of Land 
Management are beneficiaries of the program. According to data 
provided by the Off-Highway Vehicle Division of the California 
Department of Parks and Recreation, over the last several years 
Federal land management agencies have received an average in 
excess of $10 million per year in grants from the Green Sticker 
Program. Another such program can be found in the State of 
Utah. According to Utah's Department of State Parks and 
Recreation, the income generated in 1997 from both the $12.50-
per-year off-highway vehicle registration fee and a portion of 
the State motor fuel tax is in excess of $1.2 million. Of this 
amount, $175,000 was available in 1997 to Federal agencies for 
grants to off-highway vehicle facilities. The Forest Service 
applied for, and received, just $74,000 of this money. The BLM 
didn't even apply for any grants, leaving over $100,000 
unexpended. With this amount available to land management 
agencies going unexpended, it doesn't seem necessary to impose 
any additional fees on the off-highway vehicle community.
    When the AMA last provided testimony on the subject of the 
imposition of fees at public recreation facilities, we 
expressed a lack of confidence in the ability and willingness 
of the land management agencies to conduct a program which 
provided the necessary protection against the duplication of 
fees. We cautioned against providing the agencies the latitude 
to impose a redundant fee on the user group already paying for 
access to a particular facility, simply because it was easy to 
charge them again.
    The progress report on the fee demonstration program has 
proven our concerns to be well-founded. When the Forest Service 
and the BLM issued their initial proposals for areas to be 
included in the fee demonstration program, both proposed to 
charge fees at some of the most popular off-highway vehicle 
areas, ranging from $3 to $10 per day per area, while 
continuing to submit grant requests from State-imposed user fee 
programs that amount to an average of $1 million per grant per 
area. That's right; our worse fears were realized.
    Consider, if you will, the motor fuel tax and the 
registration fee comprising two layers of fees. The agency has 
proposed to impose what amounts to a third layer of fees on a 
single group of users who has been paying their way all along. 
As you can imagine, the outcry from the off-highway vehicle 
community was intense. As a result of this outcry, some of the 
most popular areas in the California desert district, managed 
by the BLM, were temporarily taken off the list. I understand, 
however, that they are slated to be reproposed in the near 
future.
    In fact, over the President's Day weekend, fliers were 
apparently distributed by the BLM which announced that fees 
would be imposed beginning this April at the popular off-
highway vehicle area, Imperial Sand Dunes Recreation Area. This 
area already receives nearly three-quarters of a million 
dollars a year from the California Green Sticker program. The 
Forest Service only gave the off-highway vehicle community lip 
service when it came to discussing the areas they had proposed 
for inclusion in the pilot program, which were already being 
funded with user fees. They publicly expressed a willingness to 
evaluate the areas they had chosen, but never took any areas 
off the list.
    One good example of this is the so-called Enterprise 
Forest, or the Southern Province Forest, comprised of the four 
national forests in southern California. The situation on the 
Enterprise Forest illustrates the third layer of fees that the 
off-highway vehicle community has been asked to pay. Since the 
demonstration program, in addition to needing a green sticker 
on their vehicles, off-highway vehicle enthusiasts have needed 
to purchase an adventure pass in order to park their trucks and 
tow vehicles in staging areas that were built and maintained 
with Green Sticker dollars.
    Recently, an AMA affiliate, the Central Coast Motorcycle 
Association, held a Sunday event in Los Padres National 
Forest--if I might, I have just a little bit more--held a 
Sunday event in the Los Padres National Forest, one of the 
Enterprise Forest units. Forest Service agents were on hand to 
sell the adventure passes to early arrivals on Saturday, but 
due to the popularity of the event, the agents ran out of 
permits early Saturday afternoon. The Forest Service could not 
find any agents willing to work on Sunday to sell the passes, 
but did manage to find law enforcement officers willing to 
write tickets to every attendee. Even those who had managed to 
buy a pass on Saturday before the supply was depleted were not 
left out. The passes were for calendar days, not for 24-hour 
periods. Since they had by then spent the night camping out in 
the forest, the unlucky participants were now in violation.
    Neither the Forest Service nor the Bureau of Land 
Management has done an acceptable job of ensuring that the fees 
they impose are coherent and integrated. The AMA would only 
support permit fee authority for the land management agencies 
provided that safeguards were put in place to ensure that our 
essential criteria are met.
    Perhaps permanent fee authority could be provided in a 
manner which would allow fees imposed by States and then 
transferred to Federal agencies in the form of grants to be 
scored as a fee generated by a land management agency for the 
purposes of satisfying their responsibility for developing 
revenue from fees.
    The challenge for land management agencies, it seems to me, 
is to develop innovative ways of collecting fees from visitors 
to the facilities they manage, who have not traditionally been 
asked to pay for the privilege of visiting those facilities. 
Instead of meeting this challenge to their fullest potential, 
the Forest Service and the Bureau of Land Management have, from 
our perspective, taken the easy way out and imposed fees on 
individuals from whom they have already figured out a way to 
get fees.
    Thank you for the opportunity to provide these comments as 
part of the official hearing record today. I'd be happy to 
answer questions.
    [The prepared statement of Mr. Dingman may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Coyne?

 STATEMENT OF ALASDAIR COYNE, CONSERVATION DIRECTOR, KEEP THE 
                           SESPE WILD

    Mr. Coyne. Mr. Chairman, it is my honor to appear before 
you today, to discuss Forest Service access fees, and my 
responsibility to inform you that this well-intentioned program 
threatens many of the principles held dear by Congress and the 
Forest Service, while eroding public confidence in the 
government's ability to serve our common good.
    In several decades of civic activism, I have never seen so 
many people so outraged at a government program. The program is 
upsetting a great number of people, far out of proportion to 
the minimal fees collected. Democrats are upset at the 
commercializing of public land. Republicans are upset about the 
inefficiency of a program rooted in the idea of running 
government like a business. Hunters and fishermen are incensed 
at an additional fee on top of their licenses. Hikers are upset 
at the very principle of being forced to pay, to enter our 
National Forests. As one outdoor enthusiast was quoted in The 
Ventura County Star, ``The Adventure Pass has proven wildly 
unpopular with forest users.'' I have always believed that 
Forest Service lands belonged to all Americans. How meaningful 
is the land of the free, when they are charging us just to walk 
in our National Forests?''
    I believe that this fee-for-access program should be 
abandoned out of respect for the 100-year tradition of free and 
unfettered access to our National Forests. I believe that this 
is a principle truly worth fighting for.
    Let me make a few important points about the Progress 
Report you received in January. This program is not generating 
nearly the funds projected, nor does it apply the funds that 
are raised to Forest maintenance, as promised. The Forest 
Service stated when this program was initiated, that it would 
generate a wealth of new revenues and would allow ``80 percent 
of all the fees collected to go into the recreation maintenance 
budget of the National Forest where collected.''
    The best attempt at whitewashing cannot cover the fact that 
this is a tremendously inefficient program. Despite its lofty 
goals, a mere third of the fees collected were available for 
recreation facilities in southern California, after the first 
summer. For Los Padres Forest, next to my home, Forest Service 
documents put that figure at only 12 percent. This is despite 
the fact that the costs of the program have been severely 
underestimated and do not include the considerable dedication 
of time by district rangers, recreation officers, and Forest 
police, whose salaries are not subsidized by the fees.
    The Report does not indicate how much of the fee income 
went to staffing and enforcement, often the largest 
expenditure. In fact, the Report is not even clear on how much 
was collected through these fees. The Forest Service has two 
sets of figures for fee receipts in 1997 in the same Report: 
$9.9 million and $8.7 million, for the same period of time.
    Forest Service usage figures are also inconsistent. The 
Report states that fee demonstration sites totaled only 4 
percent of total 1997 visitation. The Forest Service has 
elsewhere estimated that California represents 22 percent of 
nationwide Forest recreation use. How, then, can it be that the 
four participating southern California Forests, covering half 
of the State's population, can comprise only a fraction of 4 
percent of total visitation? The Forest Service simply has no 
idea about true usage rates, and dangerously less about the 
impact of this unpopular program on those rates.
    The anecdotal evidence is strong that this program is 
generating distrust of the Forest Service and disuse of the 
Forests. Any survey which concludes that the majority of Forest 
users support access fees is a work of fiction. Evidence 
supposedly based on comment cards, cannot hope to capture the 
opinion of most users, when the majority of users are not 
estimated to be complying with the program.
    The Report calls for the development of a customer 
communications package. Meaning the need to find a better way 
to sell something to the public that it clearly doesn't want to 
buy. Forest Service materials now refer to us as ``customers,'' 
and Forest Service Chief of Staff Francis Pandolfi says, 
speaking of recreation, ``For the first time, we are selling a 
product.''
    But the public already owns the land. We don't want to buy 
it back a la carte. We expect Congress and the Forest Service 
to manage it without doubly taxing us through both access fees 
and annual Federal income taxes.
    Here the Report gives the lie to the entire fee-for-access 
program. The maintenance backlog for the Forest Service is 
currently estimated at $1 billion. Expected contributions to 
this backlog from the 40 participating sites for 1998, will 
constitute only 0.38 percent of the backlog. At that rate, this 
program will take over 250 years to successfully replace the 
failed responsibility of Congress to adequately fund Forest 
recreation facilities.
    Forest users are not dumb. We are willing to pay more for 
campground facilities, but not to surrender all Forest access 
while the Forest Service loses approximately $400 million a 
year through road building and below-cost timber sales to 
logging corporations. It is impossible to miss the corporate 
interest in privatizing the Forests and ``Disneyfying'' public 
lands through concessionaire rights.
    What is difficult to understand is the need to surrender 
the public trust to these corporations. Government should be 
efficient, but it cannot hope to be a business. Forest rangers 
should not be meter maids, and their Supervisors should not be 
PR flacks. The Forest Service mission is, frankly, more 
important than any commercial enterprise. It begins with 
protecting the land and ends with enabling everyday Americans 
to enjoy nature without commercialization. When Congressman Jim 
McClure of Idaho warned that people would not want to pay to 
see the sun-set, he hit the nail on the head.
    Mr. Chairman, you are here today because you have 
demonstrated, with members of this Subcommittee, great skill in 
reading the public mind and responding to its will. It is my 
belief that my presence before you can help serve that purpose 
by bearing witness to an unpopular, unsuccessful program that 
is unworthy of your continued support.
    I thank you for your time, and hope to commend your good 
judgment.
    I will leave for the record these 14,500 petition 
signatures against Forest access fees, collected from the San 
Bernardino Forest.
    Thank you.
    [Signatures are on file at the Committee office.]
    [The prepared statement of Mr. Coyne may be found at end of 
hearing.]
    Mr. Hansen. Thank you. We appreciate your comments, Mr. 
Coyne.
    I know many of you have reduced your testimonies to stay 
close to the time. We appreciate that. Feel free to submit to 
us, though, whatever you may have.
    It's very difficult to come up with a way to analyze all of 
these things and take care of all the needs of all the public 
lands, and it's not an easy task. So we'll muddle our way 
along. Hopefully, we can do something fairly right, and see 
where we go. Keep in mind there's 535 people up here that will 
have a hand in this. So we'll hope it comes out right and is 
fair to the American taxpayers.
    All of you have made excellent point, and I really truly 
appreciate it. Thank you for coming. I know it's sometimes 
frustrating to come to these hearings. You wait while we go out 
for votes and you're cutoff on time. That's the frustrations of 
Congress; we go through the same thing.
    I thank you all for being here and appreciate your 
testimony.
    And this hearing will now stand adjourned.
    [Whereupon, at 12:53 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additonal material submitted for the record follows.]
Statement of John Berry, Assistant Secretary for Policy, Management and 
                                 Budget

    Thank you Chairman Hansen and members of the Committee. I 
am pleased to talk with you about our experiences, mostly 
positive I might add, as we have implemented the Recreational 
Fee Demonstration Program over the last year and a half. As you 
know, this program has been a joint effort on the part of three 
bureaus within the Department of the Interior and the 
Department of Agriculture's Forest Service. These agencies 
manage a variety of resources under a variety of authorities. 
Yet, for this experiment, they have worked closely and have 
found that they have a great deal in common.
    Mr. Chairman, I have a prepared statement that summarizes 
our experience. I will be pleased to answer any questions to 
the best of my ability. With me are Maureen Finnerty, Associate 
Director of the National Park Service for Park Operations and 
Education, Dr. Richard Coleman, Director of Refuges for the 
Fish and Wildlife Service, and Roger Schmitt, Group Manager for 
Recreation in the Bureau of Land Management. Each of these 
persons has a working knowledge of the day-to-day operation of 
the fee demonstration program and may be able to address more 
specific questions.
    Quality service to the public and accountability are two 
primary themes for my tenure with the Department of the 
Interior. Quality service to the public demands that, when we 
charge a fee for the public to enjoy and recreate in our 
special natural and cultural areas, the value of the recreation 
experience is equivalent to or exceeds the fee.
    Accountability demands that we use recreation fee revenues 
wisely and in a way that enhances the quality of our visitors' 
experience. I am working closely with the bureaus in the 
Department of the Interior to develop approaches to priority 
setting so that we give priority to those projects that affect 
the public's or our employees' health and safety. I am 
confident that recreational fees in our Federal recreationsites 
remain a ``bargain'' and I am pleased with the progress we are 
making in applying fee revenues to projects that reduce our 
maintenance backlog.
    Visitor response to the demonstration fees has been 
positive. Both the National Park Service and the USDA Forest 
Service conducted surveys to assess visitor reactions during 
the first full year of the Recreational Fee Demonstration 
Program. Overall, 83 percent of national park visitors surveyed 
said that they were either satisfied with the fees they paid or 
thought the fees were too low. In the Forest Service, over 64 
percent of people who completed a survey card said that the 
opportunities and services they experienced were at least equal 
to the fee they paid.
    We believe that the strong support, so early in the 
program, is primarily because the fee revenues have not been 
offset by reduced appropriations, and because receipts remain 
in the recreation areas in which they were collected, to be 
used to improve visitor services and to protect resources. Our 
visitors seem to be responding with greater care of the 
recreation resources, for there is increasing evidence that 
incidents of vandalism have decreased in areas where we collect 
recreation fees.
    We also believe that much of this public acceptance came 
about because we involved and communicated with the public 
early in the process in a variety of ways. There was a lot of 
national press, of course, and a surprisingly large proportion 
of positive and supportive editorials in the newspapers. At the 
local levels, our agencies spent a great deal of effort working 
with the public through formal communication plans, news 
releases, meetings with local community leaders, constituent 
groups and advisory councils, information leaflets, explanatory 
videos, open houses, public workshops, comment cards, and signs 
and bulletin boards. These efforts were important to the 
success of the Recreational Fee Demonstration Program.
    Though the fee authorities under the Land and Water 
Conservation Fund Act have for many years applied to several 
Federal agencies, interagency cooperation has blossomed under 
the Recreational Fee Demonstration Program. The participating 
agencies have established a record of cooperation that I 
believe is unprecedented in the arena of recreation fees. This 
is true not only among bureaus of the Department of the 
Interior, but also with the Department of Agriculture's Forest 
Service.
    Throughout the process of implementing the program, fee 
managers from the four agencies held regular meetings to 
discuss progress, approaches, problems, and solutions. They 
have developed common approaches for evaluating the fee 
program. They have initiated a number of joint projects with 
each other, and with states and counties.
    Mr. Chairman, I could go into great detail about our 
accomplishments, but these are already described in the joint 
Interior-Agriculture progress report to the Committee on 
Appropriations, Subcommittee on Interior. Copies were made 
available to members of this Committee. Let me simply highlight 
some of the findings in that report.
    First, a very large majority of visitor levels have been 
sustained during the initial year of the new fees. Our Federal 
recreation resources are truly public treasures. Accordingly, 
we must be concerned that we don't unwittingly price the 
American public out of the use of their resources. The initial 
data that we have on visitation during the first full year of 
the program indicate that fees appear to have a negligible 
impact on visitation levels. Of course, we will not be 
satisfied with the results of a single year's experience. We 
will continue to evaluate visitation as it relates to fees. We 
will look at those sites where visitation increased and those 
where visitation went down, and try to determine why. We will 
also try to determine whether certain income, ethnic or other 
groups are affected by the fees.
    Second, recreation fee revenues have increased 
significantly in all four agencies administering the 
Recreational Fee Demonstration Program. Between fiscal year 
1996 and fiscal year 1997, recreational fee revenues increased 
by 57 percent in the National Park Service, by 35 percent in 
the Fish and Wildlife Service, and by 11 percent in the Bureau 
of Land Management. We expect further revenue increases during 
fiscal year 1998. The U.S. Forest Service has also experienced 
significant revenue increases. This is good news, for it 
identifies a new source of revenue, in addition to public 
appropriations, that will allow us to improve visitor services.
    Third, the agencies are evaluating a wide variety of types 
of fees. Some are variations of entrance fees, ranging from the 
individual and carload fees that are typically collected at an 
entrance kiosk, to the Golden Eagle passport, unit-specific 
annual passes, and also multi-unit passes that allow entry into 
several sites of the same Federal agency or several sites 
operated by different Federal, state and local agencies. We 
also are evaluating several types of user fees, for such uses 
as parking, hunting, camping, boat launching, dumping of 
sanitary wastes from recreation vehicles, and outfitter and 
expedition fees.
    Fourth, the agencies are evaluating a wide variety of 
methods for collecting fees, from the typical ``ranger in the 
kiosk'' to automated collection machines, and collection by 
mail. We are looking at using different parties for collecting 
fees, including our own employees, partnership arrangements 
with other agencies, using volunteers, and consignment sales by 
vendors, concessionaires, and other private entities inside and 
outside of the recreation area boundaries. We have many 
instances in which fees are being collected under an honor 
system on a self-serve basis. What we learn will help us to 
design efficient and effective ways of collecting fees in the 
future.
    Fifth, the agencies have found that some of the initial 
collection costs for new fees are higher than expected, and 
certainly higher than they will be over the long run. The 
reason for these higher costs is largely the startup and 
capital costs for new fees that include kiosks, entrance 
stations, and new equipment and supplies. The agencies are 
working on approaches to amortize capital expenditures over 
their useful life, which will give an accurate representation 
of their annual impact on collection costs. In addition, the 
agencies will look for ways to reduce the cost of fee 
collection. Cost effectiveness may not always be possible. In 
some sites, for example, the particular mix of low visitation 
and multiple access points may make it impractical to institute 
any fees at all.
    Finally, the agencies have begun the process of financing 
maintenance backlog projects. Considering that we are only now 
into the second full year of the Recreational Fee Demonstration 
Program, and that many of the revenues were only available to 
the demonstration sites toward the end of fiscal year 1997, the 
participating agencies have begun a significant number of 
projects that will reduce the backlog maintenance requirements 
and provide public service enhancements at their recreation 
sites. I refer you to the initial lists of backlog projects 
that are detailed in the Appendix section of our report to 
Congress.
    I would like to highlight some examples of the types of 
backlog projects that are underway using Recreational Fee 
Demonstration Program revenues. Yellowstone National Park is 
rehabilitating deteriorated electronic infrastructure for 
safety and resource protection, repairing utility systems, 
replacing deteriorated docks, rehabilitating trails and 
overlooks, interpretive exhibits and backcountry campsites, and 
restoring the Turbid Lake road. At Chincoteague National 
Wildlife Refuge in Virginia, the Fish and Wildlife Service is 
revising and updating kiosks to facilitate better visitor 
orientation, constructing hands-on environmental education 
learning centers, and installing photo blinds to enhance 
opportunities for wildlife viewing and photography. In Paria 
Canyon, on the Arizona-Utah border, the Bureau of Land 
Management used fee revenues to maintain and upgrade sanitation 
facilities at trailheads.
    The Recreational Fee Demonstration Program has been a 
positive experience for the participating agencies. The 
agencies agree that long-term implementation of this fee 
program is desirable. We wish, however, to emphasize our strong 
desire that any permanent authority should not take effect 
until after the current temporary authority expires at the end 
of fiscal year 1999. The test is entering its second full year, 
and our current findings and observations are preliminary. The 
full evaluation of the program will not be completed until 
March 1999. Yet, even at this early stage, we are pleased with 
the results, and would like to design a program that builds on 
our positive experience in implementing the demonstration 
effort. The Administration proposed permanent fee authority as 
part of the President's fiscal year 1999 Budget, with the pay-
as you-go costs offset within the overall budget, and stands 
ready to work with Congress to enact this legislation.
    There are several elements that we would recommend for 
permanent legislation. These elements are presented in more 
detail in the report, but I wish to highlight some of them. 
First, we would emphasize the need for flexibility to tailor 
fees to meet specific management and visitor needs. Recreation 
facilities, resources, and primary users are not alike from 
agency to agency, and even within agencies. When it comes to 
designing fee programs in the face of such differences, we 
simply caution that one size does not fit all. At the same 
time, of course, we don't want to burden the recreating public 
with a confusing array of fees. But we should have the 
flexibility to balance the needs of the recreation resources 
with those of the user.
    Second, we think it is crucial to recognize the importance 
of incentives in the design of recreation fees. The provision 
in the demonstration program that fees be applied to on-site 
backlogged maintenance projects provides a substantial 
incentive for recreation managers to collect fees and to keep 
the cost of fee collection down. It also appears that the 
public is highly supportive of this provision. People seem much 
more willing to pay the fees if they know the revenues will 
directly benefit the resources that they enjoy.
    Third, the provision that allows agencies to utilize the 
revenues over more than a single fiscal year can help agencies 
do long-range backlog reduction planning, and to implement 
these plans in a systematic way. The assurance of multi-year 
funding also strengthens agencies' ability to enter into 
partnership arrangements with states or non-governmental 
entities so that backlog reduction becomes a community effort. 
Such funding stability encourages long-term planning, including 
investment in more efficient fee collection infrastructure.
    Finally, we believe that the provision that sets aside some 
of the fee revenues for addressing broader agency priorities 
would be an important element of permanent legislation. We 
caution that a fixed formula that returns a high percentage of 
revenue to the collecting site could, over the long run, create 
undesirable inequities within an agency. We need to consider 
this possibility in determining the appropriate balance between 
the needs of the fee collection site with the backlog 
maintenance needs of the entire agency.
    In our final report at the end of March, 1999, we will be 
able to provide to Congress much more detailed findings on 
visitors, management issues, revenue potential, impact of fees 
on communities and the less fortunate, and other issues. I 
believe that this information will help the agencies in 
implementing permanent fee authority to maximize public service 
and accountability.
    Thank you, Mr. Chairman. I or my colleagues will be happy 
to answer any questions you may have.
                                ------                                


  Statement of Lyle Laverty, Regional Forester, Rocky Mountain Region 
        Forest Service, United States Department of Agriculture

    Mr. Chairman and Members of the Subcommittee: I am pleased 
to be here today to discuss how the Forest Service is 
implementing the recreational fee demonstration program. I am 
accompanied by Greg Super, the national Recreation Fee 
Demonstration Program Coordinator for the Forest Service.
    Every year, almost 95 percent of all Americans engage in 
some sort of outdoor recreation. As the largest single supplier 
of public outdoor recreation, the National Forest System hosted 
over 850 million visits to its 191 million acres of national 
forests and grasslands in fiscal year 1997. People are drawn to 
national forests for a variety of activities, including white 
water rafting, hiking, camping at developed sites, skiing, 
sightseeing, mountain bike riding, and seeking the solitude of 
the primitive backcountry.
    Demands for recreation opportunities are becoming 
increasingly complex. Forest visitors include more senior 
citizens, people of diverse ethnic backgrounds, urban dwellers, 
and people with disabilities. To meet this demand, we need more 
specialized resources to provide the quality experiences our 
visitors expect. While our fiscal year 1999 budget request 
increases for recreation, appropriations have remained static 
while demand has increased. Increasingly, we must meet our 
recreation objectives through creative and innovative 
approaches, such as the recreational fee demonstration program 
and working jointly with our partners and through volunteers.
    Outdoor recreation and tourism play a significant role in 
the national economy and are key to the economies of many local 
communities. Spending by recreation visitors contributes 
billions of dollars to the Nation's Gross Domestic Product and 
thousands of jobs. In addition to receipts from the recreation 
fee demonstration program, other revenues from National Forest 
System recreation fees exceed $45.2 million annually. Outdoor 
recreation provides the largest contribution to national 
economic activity of any National Forest System program.
    From fiscal year 1994 to fiscal year 1998, the Agency's 
recreation budget averaged $217 million annually, but total 
annual needs for operation, maintenance, backlog reductions, 
and capital investments are much higher. We need additional 
resources to meet demands for activities as diverse as managing 
caves and wild and scenic rivers, providing more interpretive 
services, and trail maintenance. In fiscal 1997, the 
recreational fee demonstration program provided a much needed 
$8 million to address critical resource needs and enhance 
customer services. We expect the fees collected to increase 
significantly this year. For these reasons, the Forest Service 
strongly supports the recreation fee demonstration program 
(RFDP), an essential part of meeting the increased demand for 
quality recreation facilities and services to the public. It is 
critically important that base level appropriations funding 
continue in conjunction with the RFDP to demonstrate a clear 
added value to the public for their fees.
    Now let me turn to the implementation of the recreational 
fee demonstration program.

Recreational Fee Demonstration Program

    Congress authorized the landmark recreational fee 
demonstration program in fiscal year 1996 through enactment of 
the Omnibus Consolidation Appropriations Act for Fiscal Year 
1996. The RFDP authorizes the USDA Forest Service, and the 
National Park Service, U.S. Fish and Wildlife Service, and the 
Bureau of Land Management of the Department of the Interior to 
test the collection, retention, and reinvestment of new 
recreation admission and user fees on up to 100 projects in 
each Agency. Before the RFDP, the Forest Service was limited to 
charging user fees at a limited number of developed sites and 
none of the collections were retained for Forest Service use. 
This new authority was a major positive departure from 
historical practice. Initially, the RFDP authority allowed 
agencies to retain all of the new fees in excess of a fiscal 
year 1995 base figure, with 80 percent of the retained fees to 
be used at the sites where they were collected, and 20 percent 
to be distributed nationally to any site under the jurisdiction 
of the collecting agency. However, the fiscal year 1998 
Interior and Related Agencies Appropriations Act removed the 
base year requirement, thus allowing the agencies to retain all 
recreation fee revenues from the fee demonstration projects, 
not just the revenues in excess of the fiscal year 1995 
collections, greatly increasing our ability to improve 
recreational sites and services. The demonstration authority 
expires at the end of fiscal year 1999, with receipts being 
available to complete projects through September 30, 2002.
    The Forest Service began to agressively implement the RFDP 
in June, 1996, as indicated in the interagency report recently 
provided to Congress. By the end of fiscal year 1997, with 40 
projects collecting funds, receipts from the RFDP grossed well 
over $8 million. An additional 45 projects will begin 
collections in fiscal years 1998 and 1999. Projects are being 
tested in 28 states in all regions of the country, including 
Puerto Rico.
    The agency is testing a variety of fees in both developed 
and dispersed recreation areas. Based on survey results, public 
acceptance is increasing over time as people adjust to the new 
fees and begin to see results.

Project Selection and Approval

    As I previously mentioned, the Forest Service had 40 
approved projects collecting fees in the RFDP in fiscal year 
1997; 45 additional projects have been approved and will be 
operational over the next 2 years. Before we approve the 
projects, we develop a business plan and a communications plan 
describing the project and how we plan to use the additional 
fees, we evaluate local community effects, estimate the startup 
costs and the cost to improve the project, explain the fee 
calculation rationale, involve the public in the planning 
process, and develop customer service feedback mechanisms.
    Along with the RFDP came more responsibility and the need 
for tight fiscal accountability. In order to track accurately 
the RFDP funds, the agency had to incorporate new collection 
and cash management procedures, and improve local and national 
accounting systems to report revenue and expenses by project, 
forest, and type of recreation activity.

Recreation Backlog and Enhancements

    The House Appropriations Committee directed us to use the 
revenues from this program primarily to reduce the maintenance 
backlog and provide public service enhancements. The Forest 
Service currently has a deferred maintenance backlog for 
recreation facilities and trails estimated at about $1 billion. 
This backlog continues to grow each year with ever-increasing 
use pressures and insufficient operations and maintenance 
resources. We spent $638,500 of RFDP collections in fiscal year 
1997, addressing less than one-tenth of 1 percent of the total 
deferred maintenance backlog. We expect the RFDP revenues 
generated in fiscal year 1998 will address an additional $3.9 
million of recreation and trails backlog.
    Addressing the backlog component is a priority for this 
Administration, which is why the President included the 
President's Environmental Resources Fund for America Initiative 
in his fiscal year 1999 budget. Such an initiative would help 
address the deferred maintenance backlog in Forest Service 
facilities and provide increases for such activities as 
restoration and replacement of water and sanitation facilities 
at major recreation sites and trails. The President's budget 
also proposes making the fee authority permanent, which will 
help ensure that reducing the deferred maintenance backlog will 
continue to receive high priority.

Interagency Coordination

    The RFDP has provided a unique opportunity for close 
coordination and collaboration between the four agencies 
implementing the program. National fee managers hold regular 
meetings to share information and provide common guidance for 
collecting public feedback, so that each agency's evaluations 
are comparable for implementing joint projects.
    Working jointly across jurisdictional boundaries has proven 
to be very effective and less burdensome and confusing to the 
public. All four agencies are proud that we were able to 
produce a quality interagency progress report to Congress on 
the RFDP in a timely manner.

Lessons Learned

    Mr. Chairman, one important characteristic of the fee 
program is that it is a ``test'' which has allowed the Forest 
Service the flexibility to be innovative, while making needed 
adjustments based on public concerns and experience. Since we 
began testing the RFDP in June 1996, we have learned that most 
of our visitors accept paying fees if the majority of those 
fees are returned to the local project and visible results are 
evident quickly.
    While we have had many successes, there have also been some 
challenges. An example of a problem we faced was making the 
distinction between admission fees and user fees. According to 
the Land and Water Conservation Fund Act, admission fees are 
fees charged for general access into a recreation site or area. 
User fees are charged for use of specific facilities, programs 
or resources, some of which are within a recreation site. For 
many of our visitors who possessed a Golden Eagle passport or 
similar pass, this subtle distinction became a problem since 
these passports can only be used for admission fees, but not 
for user fees. In response to public comments identifying this 
concern, the Forest Service changed its policy and began to 
accept the Golden Eagle passport for admission to all national 
monuments, national scenic areas and national recreation areas 
on national forests participating in the RFDP. Although this 
reduced collections, we felt it was an important customer 
service improvement.
    All of the participating agencies faced a number of other 
issues such as negotiating regional and multi-agency entrance 
fees; questions about reasons for collecting recreation fees; 
financing startup costs for new projects; cash management and 
employee safety; compliance regarding payment of fees; 
communicating with our visitors; inequities within or among 
agencies; local community effects; agency liability; project 
tracking systems; and gaining critical business and 
communications skills. The agencies are jointly working to 
address these concerns as new projects are implemented.

Legislative and Management Improvements

    After almost 2 years of testing the RFDP, we have a number 
of suggestions for how the fee program can be improved and 
strengthened. The President's fiscal year 1999 budget assumes 
permanent legislative authority, which we strongly encourage 
the Committees to consider. I will highlight a few of the 
significant improvements and refer to the progress report for 
the detailed list of other suggestions.
        <bullet>Joint Agency Effort: Congress needs to clarify 
        authority to provide for increased joint agency efforts across 
        Federal, state, and local jurisdictions in administering the 
        fee program. Specific statutory authorization could help 
        clarify the agencies' authority to enter into multi-agency and 
        multi-governmental fee agreements, and how fees should be 
        distributed under these agreements.
        <bullet>Better Long Term Planning: Permanent authority could 
        allow agencies to set aside funds toward expensive backlog 
        projects that could not be funded with only 1 year's revenue. 
        Permanent authority would strengthen the agencies' ability to 
        enter into cost-sharing or other partnership arrangements that 
        make backlog reduction a cooperative effort.
        <bullet>Base Level Appropriations: Congress should preserve the 
        added value provided by the fee demonstration by not offsetting 
        appropriations with fee receipts which would undermine local 
        public support and agency incentives.
        <bullet>Broadening the Demonstration Effort: The RFDP could be 
        expanded to explicitly include recreation-related activities, 
        such as ski area special use permits and permits for outfitters 
        and guides, which currently may be outside of the scope of the 
        RFDP.

Closing

    Mr. Chairman, we agree that long-term implementation of the 
RFDP is desirable. The interagency progress report highlights 
many successes on the ground since we began implementing the 
RFDP and also draws to your attention several areas that need 
improvement.
    We will continue to evaluate during the testing period so 
that we may further explore ways to better administer this 
program.
    We are pleased that overall visitor response has been 
generally positive. This program represents a significant step 
toward improving customer services and recreation facilities 
for those who visit our national forests.
    This concludes my statement. We would be pleased to answer 
your questions.
                                ------                                


    Statement of Philip H. Voorhees, Associate Director for Policy 
        Development, National Parks and Conservation Association

    Mr. Chairman and members of the Subcommittee, my name is 
Phil Voorhees. I am Associate Director for Policy Development 
for the National Parks and Conservation Association, America's 
only private, non-profit citizens organization dedicated solely 
to protecting, preserving and enhancing the National Park 
System.
    NPCA appreciates the opportunity to testify today on the 
issue of the fee demonstration program. Since its initiation in 
1996, the demonstration program has proven valuable. It has 
brought more revenue into the national parks and has begun to 
educate park managers about public acceptance of entrance and 
use fees, options for fee collection, and collateral benefits 
and costs of increased fee collection. The program has been 
dynamic in raising a variety of issues that Congress should 
address once the program reaches its conclusion. Some of those 
issues include the appropriate method of interagency revenue 
sharing, the appropriateness of specific types of use fees, 
eventual fee caps, and distribution of revenues within the 
National Park Service. It is our hope that between this hearing 
and the filing of the final report on the progress of the 
program, this Committee will consider the issues identified 
below, adjust the program accordingly and make the authority 
permanent.

Public Acceptance of the Demonstration Program: Entrance Fees

    The land management agencies' Recreation Fee Demonstration 
Program Progress Report to Congress notes that the 
demonstration program has met with generally high levels of 
public acceptance for increased entrance fees to the national 
parks. In 1995, prior to initiation of the program, NPCA 
conducted a national survey asking about the public's 
acceptance of fee increases. Seventy nine percent of those 
surveyed responded that they were not opposed to an increase 
from an average (at that time) of $5 per carload for a visit of 
up to 7 days. In 1996, NPCA again conducted a survey exploring 
the public's willingness to pay specific levels of fee 
increases. Based on per person, rather than per carload 
assessments, the 1996 survey showed that 56 percent of 
respondents would support an increase of $5 per person, with 
support gradually dropping to 20 percent as the increase rose 
to $10 per person.
    The 1995 survey accurately predicted the general public 
support for fee increases. The 1996 survey, however, should 
raise some questions for the National Park Service and for 
Congress as the agency moves more aggressively into fee 
collection. The question is how much is too much. Clearly, the 
public acceptance for fee increases has limits. At many units 
of the park system, entrance fees have been doubled and in some 
instances tripled. Yosemite's fee, for example, climbed from $5 
per car before the initiation of the program to $20 per car. If 
the NPCA survey is any indicator, the current fee levels may be 
approaching or may have already reached the limit of what the 
public finds acceptable.
    National Park Service fee revenues have grown under the 
program from $75.7 million in fiscal year 1994 to an estimated 
$142 million in the current fiscal year. With 97 sites 
participating in the program, broadening the base of the fee 
program (i.e. authorizing more units to participate) should be 
examined before any consideration is given to raising entrance 
fees even further.

Public Acceptance: Use Fees

    Unlike entrance fees, the new and elevated use fees 
established under the demonstration program have received mixed 
reviews. The Grand Canyon Private Boaters Association, 
testifying today, presents perhaps the most cogent examples of 
where the National Park Service has already stepped some 
distance across the line of public acceptance for fee 
increases. At the Grand Canyon, for private boaters, the wait 
to get a slot on the Colorado River is as much as 8 years. NPS 
has instituted a place-holding fee of $25 per year and a $100 
application fee so that, on average, private boaters would pay 
$300 before ever dipping an oar in the water. Additional use 
fees apply once the boaters are on the river. While it is true 
that charging a fee to wait in line thins the list of those who 
are less serious (or less patient) about running the river, 
requiring $300 up-front, before ever experiencing the Colorado 
and the Grand Canyon seems a little excessive.
    Nonetheless, this and other examples of excess can and 
should be an active learning experience for the National Park 
Service as it explores the boundaries of public acceptance of 
use fees. The demonstration program was well crafted, in that 
it allows NPS and the other land management agencies to explore 
different opportunities and occasionally fail without penalty 
any venues, use fees are a new concept both for the public and 
for the agency. As Congress evaluates the success of the 
program and considers making the program permanent, it should 
pay careful attention to examples like the Colorado River wait 
list fee and evaluate what kinds of fees are acceptable to the 
public and what kinds are not.

Broadening the Scope of Fee Collection

    The National Park Service is authorized to collect fees 
under the demonstration program at 100 sites and currently 
collects at 97. Those 97 units include some that had previously 
prohibited collection, like Cape Canaveral NS which now charges 
a daily use fee. Other areas have discovered that, if 
appropriately applied, use fees can have collateral benefits 
unrelated to revenue generation. When Glen Canyon NRA 
established a fee at Lone Rock Campground, within 1 year 
assaults dropped by 71 percent, disorderly conduct violations 
dropped by 88 percent, quiet hours were enforced for the first 
time, littering decreased and family use of the campground 
increased. Although it is unfortunate that the parks experience 
any crime, clearly the fees assessed here have had a beneficial 
impact. In addition, smaller units, like Cape Canaveral were 
able to generate supplemental revenues that proved useful in 
addressing backlogged park needs.
    In response, the Congress should consider expanding the 
program to all units of the National Park System and extending 
the demonstration period for another 5 years. This expansion 
would allow the Park Service to explore further both the 
opportunities and pitfalls of fee collection, building a more 
accurate record of where, what kind and what level fees are 
appropriate, while at the same time providing parks with badly 
needed supplemental revenue. At the conclusion of an expanded 
program, Congress would have a more accurate record to guide 
future decisions on where, when, how and how much the public 
should be asked to contribute for use of its park lands.

Distribution of Revenues Among Agencies and Within NPS

    For the land management agencies, one of the most 
contentious aspects of the demonstration program has been 
distribution of the revenues resulting from the Golden Eagle 
passport. Purchase of the Golden Eagle passport allows free 
entry to all fee areas across the land management agencies. 
Under the demonstration program, the price for the Golden Eagle 
passport was raised from $25 to $50 in 1997, resulting in an 
increase in total NPS revenues from $5.4 million to $9.6 
million. Currently, revenue from the sale of the passport is 
retained by the agency making the sale. When sale of the 
passport is opened to third parties the calculus will become 
far more complex, as none of the agencies will be directly 
selling at least some portion of the passports. The fee 
demonstration program was specifically authorized to spend the 
resulting revenues on projects visible to the fee paying 
public. As a matter of equity, revenues should therefore be 
applied to the agencies based on their share of fee-generating 
visitation.
    Within the Park Service, the level of revenues received at 
some of the ``crown jewel'' parks matches or exceeds the total 
annual operations budget for those units. Grand Canyon NP is 
the best example, generating $19.4 million in fee revenues in 
fiscal year 1997, compared with an operations budget for that 
year of $14.6 million. There are not many units in this 
category, but all of the high visitation units participating in 
the program generate similarly high revenues. To advocates of a 
fee-funded National Park Service, this presents a tempting 
target. Those advocates, however, should realize that many of 
the most highly visited units also have the most substantial 
backlog of maintenance and infrastructure needs. Not 
surprisingly, visitation has a price. Grand Canyon NP alone has 
an infrastructure and maintenance backlog exceeding $154 
million. Even with an annual contribution of an additional $15 
million (the park currently retains 80 percent of the 
revenues), it will take Grand Canyon 10 years to address its 
outstanding maintenance project needs, assuming future 
maintenance budgets meet the needs of the park and the backlog 
does not grow. And Grand Canyon, like many other parks has 
substantial cultural and natural resource protection needs as 
well.
    Nonetheless, as Congress considers the success of the 
demonstration program as it moves forward, it should consider 
the equity of high levels of supplemental revenues flowing into 
the high visitation, crown jewel parks. Units throughout the 
system suffer from similar problems of decaying infrastructure 
and delayed maintenance. The demonstration program currently 
distributes 80 percent revenues to the parks that collect the 
fees. The remaining 20 percent is distributed to the non-fee 
demonstration units and is used to support the management of 
the national fee program. As the need for additional studies 
(discussed below) emerge, Congress should consider evening the 
distribution so that the less visited and non-fee units do not, 
in effect, end up supporting the additional research and 
management of a program that generates revenues 
disproportionately benefiting the high visitation crown jewels.

Additional Research Needs

    When the National Park Service finished its plan for the 
demonstration fee program, the Service made relatively heavy 
use of parks that already charged fees and simply raised them. 
This avoided generating some of the controversy that the Forest 
Service has experienced, but it also provided a narrower scope 
for the demonstration program than could have been achieved. 
Before the Congress considers making the program permanent, 
some additional research may be warranted to improve the 
agencies' level of understanding about the public's willingness 
to pay for entry to and use of parks supported by tax dollars.
    In addition, little is known about the impact specific 
levels of fees have on the inclination of people to visit the 
parks from specific demographic and economic groups. The 
national parks are for all of us to enjoy and to learn from, no 
matter the individual's economic or social circumstance. 
Visitation figures since the initiation of the demonstration 
program indicate that the increases have had little or no 
impact on the public's willingness to visit the national parks.
    But as the Congress, the agency and the public becomes more 
comfortable with higher entrance and use fee levels, we must 
remain always cognizant of the impact that fee increases of any 
and all kinds have on Americans with limited means. Additional 
research would help delineate at what point fees become 
problematic for those visitors and begin to affect adversely 
the demographics of park visitation. For both issues--
willingness to pay by the general public and impact of fee 
levels on economic and demographic groups--the National Park 
Service should understand the effect of its actions before 
proposing changes, rather than proposing changes and evaluating 
the impacts after the fact. Acknowledging that research costs 
money, all such research could be covered by the revenues 
generated by the existing demonstration program.

Supplementing Appropriations Beyond Public Fees

    A separate, but equally important concern for NPCA is the 
balance between assessing fees for the public enjoyment of the 
national parks and collecting appropriate fees from 
concessioners and other private users of the national parks who 
gain financial profit from their use of the parks. On Tuesday, 
this Committee conducted a hearing on H.R. 2993 to apply fair 
market value-based fees to the production of commercial 
photography and films in the national parks. For fifty years 
Hollywood and Madison Avenue have leveraged the image of the 
parks to improve their bottom line and have provided very 
little to the parks in return. It is our hope that this 
Congress will move to correct this imbalance before it adjourns 
next fall. Similarly, national park concessions reform has been 
on the agenda of each of the past four Congresses and has yet 
to pass.
    Senator Bumpers has voiced his concern for the need for 
reform for two decades, repeatedly introducing legislation to 
accomplish that reform. On this side, Chairman Hansen has also 
expressed an interest and was helpful in addressing reform 
proposals in the 104th Congress. Since 1965 and the passage of 
the Concessions Policy Act, NPCA has been working and waiting 
for reform. When the last Congress was discussing new fee 
authorities for the National Park Service, we were outspoken in 
noting that fees should not be increased for the public before 
a more fair return to the taxpayer was achieved from the 
businesses that profit from the park visitors themselves. Any 
reform that Congress seriously attempts should increase the 
competition for park concession contracts, should address the 
standing debt to the Federal Government in the form of 
possessory interest held by the concessioners and should make 
the resulting revenues available to the parks themselves.
    Our view on this issue has not changed with the passage of 
the fee demonstration program. Before the conclusion of the 
demonstration program and the consideration of implementing the 
experimental program on a permanent basis, Congress must 
address and resolve the issue of concessions reform. Failing to 
do so would be profoundly unfair to the park visitor and to the 
American taxpayer.

Conclusion

    Thus far, the fee demonstration program has proven to be a 
success by almost any metric. Fee revenues have increased 88 
percent since fiscal year 1994; the application of fees has 
shown some collateral benefits; and the participating parks 
have begun to address their backlog of maintenance and 
infrastructure needs through the new revenues, albeit at a very 
measured pace. But the program is still relatively new and a 
broad variety of questions remain unanswered.
    When fee proposals were discussed in the 104th Congress, 
many comparisons were made between the cost of a visit to the 
fee collecting parks and the cost of a variety of other forms 
of public entertainment. The comparisons provided an 
interesting diversion but avoided addressing the central 
question of what defines an appropriate fee for visiting the 
national parks and using the legally available resources. 
National parks are not entertainment outlets comparable to 
Disney World or the latest Hollywood blockbuster film. They 
serve a very different purpose, focused on education, 
inspiration and preservation for the future.
    Given those differences, before the Congress moves toward 
permanent authority for the National Park Service to set and 
adjust fees on its own judgment, it should require a full 
analysis of how the NPS expects to use and develop its 
authority, how it sees that fees will need to be adjusted in 
the next 10 years, and where (if anywhere) it intends to draw 
the line on fee collections for the National Park System. 
Before Congress provides permanent authority similar to the 
demonstration program, whether next year at the conclusion of 
the demonstration program, or after an additional 5 year 
extension, the National Park Service should be asked to provide 
a coherent plan for the fee program, detailing where and when 
fees will be applied, at what level fees will be applied, how 
quickly and to what level fees will be increased over time, and 
if there are any program types or areas that NPS or the other 
agencies have learned from experience should remain free to the 
public.
    Above all, when Congress moves to extend the demonstration 
program or make the authorities permanent, it must reaffirm its 
intent that the resulting revenues be provided to the parks and 
public lands as supplemental revenues, in addition to the 
annual appropriations that the National Park Service and the 
other agencies currently receive. Despite the impressive 
revenue performance of a small collection of high visitation 
parks, the National Park System as a whole will never and 
should never be asked to support itself with fee revenues. In 
the same 1995 survey, NPCA asked respondents about their 
willingness to pay more in taxes to support the national parks. 
Overwhelmingly--79 percent--said they would. This is a strong 
indication of the value that Americans place on their tax-based 
financial support for the national parks.
                                ------                                


    Statement of Gaylord Staveley, Vice President, National Forest 
                         Recreation Association

    Mr. Chairman, my name is Gaylord Staveley. I'm Vice 
President of the National Forest Recreation Association. In our 
view, this oversight hearing on the Recreation Fee 
Demonstration Program is much-needed and very timely. We thank 
you for the opportunity to testify.
    Our comments deal almost entirely with the Fee Demo program 
as it is operated by the USDA Forest Service. NFRA, established 
in 1948, is a national association of private-sector business 
owners or companies who construct and/or operate resorts, 
lodges, campgrounds, marinas, and pack stations for the use and 
enjoyment of the public, under permits from the Forest Service. 
There are, by Forest Service count, some 1,700 such businesses 
serving the National Forest system nationwide. Overall, these 
businesses have a multi-billion dollar investment in 
structures, facilities and equipment used to serve the visiting 
public. They contribute millions of dollars in privilege fees 
to the Federal treasury every year.
    NFRA's interest in the Recreation Fee Demonstration Program 
springs from harmful effects the program has, in its very first 
year, had on a number of those private sector businesses, and 
our concern that those effects will continue if not curbed.
    We are also concerned about the effects of a permanently 
authorized Fee Demo program on the safety and quality of 
national forest recreational experiences.
    When in late 1996, Congress authorized the selection of 
Recreation Fee Demonstration Program, it was as a three-year 
pilot project during which Federal land management agencies 
could test new access and user fees at certain sites of their 
choosing, to learn more about possible ways of reducing the 
size and scope of government while continuing to provide for 
the use and enjoyment of Federal lands.
    By February 1997 even before the fee demo program had been 
implemented in many locations, some proponents were describing 
it as being ``highly successful.''
    At that same time, some wild interpretations and 
applications of the fee demo concept were occurring in the 
field. Many Forest Service employees clearly considered the 
newer and higher fees ``found money.'' Despite the guidance 
provided with the initial authorization, it appeared there was 
little consideration for what the market would bear, or the 
effect of higher fees on local communities. Moreover, the 
program impinged heavily on a number of private-sector 
businesses to whom the Forest Service had issued concession 
permits.
    At this point I want to emphasize that NFRA is not opposed 
to the Recreation Fee Demonstration Area Program. In this time 
of limited appropriations, it may be good for the agency to 
have more than one source of revenue. And certainly it is not 
unfair to ask visitors to pay something for the use of a 
facility or amenity on a national forest. What we object to are 
the abuses of this the program and the potential for future 
abuses.
    Fee Demo is being used to displace and subrogate 
concessioner operations, and in the absence of top-down 
administration and oversight, we believe it will continue to be 
use that way.
    There has, for some time, been a faction within the Forest 
Service that advocates taking back the visitor services that 
have been concessioned out to the private sector, so those 
facilities could be operated directly by Forest Service 
personnel.
    The notion of taking back the concessions initially arose 
from resentment at seeing private sector employees beginning to 
do forest-based jobs that had traditionally been done by 
``green shirts,'' i.e. Forest Service employees. Some of those 
Forest Service employees continue to view Fee Demo as an income 
base for regaining those jobs by taking back the job sites, and 
have begun using it that way.
    During Fee Demo's first year, we have seen it used as a 
take-back device in the following ways:

        The peremptory modification of current permits. The Forest 
        Service euphemism for this is ``renegotiation.'' When Forest 
        Service officials withdrew the Trinity Lake Recreation Area in 
        California from an established campground concession program, 
        and indicated they intended to do the same thing at Lake 
        Shasta--and were stopped from carrying out that plan the Forest 
        informed the concessioner that the terms of the concession 
        permit will be ``renegotiated.'' Other concessioners who 
        questioned Forest Service interpretations of Fee Demo have been 
        told they are going to have the number of one-year renewals 
        reduced as a consequence, or that ``if they make waves, they 
        will be eliminated from the forest.''
        Refusal to renew a permit that had in the past always been 
        renewed. Several months ago the permitter who had operated the 
        Table Mountain Campground for many years simply disappeared. 
        When we couldn't find her we telephoned the Forest Office 
        administering her permit to ask how she might be contacted. The 
        Forest Service person on the other end of the line said ``oh, 
        we have that campground now--fee demo, I think it's called.'' 
        This occurred in a four-forest complex the Forest Service calls 
        the Enterprise Forest project where they are doing what we 
        consider to be ``cherry picking'' concessioned sites on four 
        urban national forests, taking back the higher-revenue sites.
        Setting a new fee and taking the revenue from it, while 
        shifting its related maintenance cost to a concessioner. In one 
        situation we observed, the Forest Service began charging 
        visitors a fee for parking in a lot that has historically been 
        free, while requiring a nearby concessioner--as a condition of 
        a permit at a totally different location--to pay the costs of 
        cleaning this Forest Service parking lot, its toilets and 
        trailhead.
        Pressuring the concessioner to lower its fees so the Forest 
        Service fee will be more affordable. An alternate tactic has 
        been to ask the concessioner to raise its fees so a new or 
        higher Forest Service fee will seem less drastic to visitors. 
        These tactics were used in connection with parking and boat 
        launching.
        Refusing for several years to allow a concessioner to raise 
        prices, so that he or she will abandon the permit; the Forest 
        Service can then take over the business ``in the public 
        interest.'' One such situation has been going on for 9 years.
    A year ago, even as Fee Demo was being hailed a success, 
the Chief of the Forest Service was finding it necessary to 
issue a letter to his Regional Foresters under the subject: 
``Prohibition Against Displacement of Concessions Based on 
Recreation Fee Demonstration Projects.''
    However, many Forest Service field employees ignore the 
Washington office. The Chief's letter notwithstanding, new 
instances of fee demo impingements on concessioners continued 
to be reported throughout the summer of 1997.
    By September, there was so much concern in the Senate that 
in a September 18, 1997, colloquy on the Senate floor, Senator 
Jon Kyl, a member of the Forests and Public Land Management 
Subcommittee, noted that ``as private permit terms expire, it 
appears that at some fee demo sites there is an intent to 
discontinue reliance on the private sector for delivery of 
recreation goods and services.''
    Senator Larry Craig, also a member of that Subcommittee, 
then noted that Senator Kyl had identified a serious problem 
that is also occurring in Idaho. He noted the development of a 
new Forest Service ``Heritage Expedition'' program that 
essentially puts the agency into the outfitter-guide business.
    Senator Slade Gorton, Chairman of the Senate Subcommittee 
on Interior and Related Agencies Appropriations, then stated 
that concessioner displacement was not an intent of the fee 
demo program.
    Near the end of the first session of the lO5th Congress, 
the 1998 Appropriations Bill was nearly amended to reassert the 
parameters of fee demo. The Forest Service opposed that 
amendment, on the grounds that ``they don't want to relinquish 
their authority to take back concessions.''

The Fee Demonstration Project is too new to receive permanent 
authorization.

    Not enough is yet known about the extent or manner that fee 
demo funds and appropriated funds can be blended to assure the 
continued availability of safe enjoyable visitor services on 
the Federal lands. It may be that the fee demo concept works 
better where there are gated chokepoints, as in national parks, 
than where entry in predominantly uncontrolled, as in the 
national forests.
    We need to learn more about what level of fees are 
reasonable: Clearly, the Forest Service has a different view of 
reasonability than does the public--as evidenced by the fact 
that in many instances the public objected to demonstration 
fees called ``fair,'' but did not object to them when they were 
lowered.
    We need more assurance that demonstration fees will be used 
for resource protection and maintenance, and that they will not 
become a source of income for a Forest Service ``jobs 
program.''
    Demonstration fees on a per-vehicle basis fall unfairly on 
escorted groups, especially those in partially filled coaches 
and vans. When transportation, tour, or ecotour companies must 
bypass national forests because of excessive fees, the public, 
the tour companies, the forest based concessioners, and the 
adjoining rural economies are all adversely affected.
    If the Administration was to renege on earlier promises and 
treat locally collected fees as an appropriation offset, the 
Forest Service would be left with no other funding source for 
recreation and maintenance backlog reduction. We believe they 
would then use Fee Demo authority as a license to extract as 
much money as possible from visitors and concessioners, without 
regard for the effect on resource protection or the ability of 
the private sector to afford quality service.
    If Forest Service recreation management--under which the 
concession permit system is administered--were required to 
operate solely on revenue from the Fee Demo program, we are 
certain the number and type of Forest Service demands on its 
private-sector permitters, already substantial, would increase 
further.
    Many forest-based businesses are already being subjected to 
extraordinary financial or labor requirements as a condition 
for favorable consideration on issuance or renewal of a permit. 
For the most part these requirements are not commensurate with 
the term of the permit; they would have to be amortized against 
a longer permit or a renewed permit--neither of which can be 
relied on.

CONCLUSION

    NFRA would like to see the Fee Demo program succeed, but we 
urge that it not be permanently authorized at this time or 
without legislated direction.
    The Forest Service is experiencing financial and staffing 
problems as well as a huge maintenance backlog. More than ever, 
help from the private sector is needed. The Fee Demo project 
was sold to the concessioner community on the basis that it 
would provide new flexibility to the agencies and attract more 
private investment to the improvement of recreational and 
visitor facilities and services on the public lands. The effect 
thus far has been to discourage private investment at national 
forest permitted sites.
    The Forest Service continues to compete against and 
undercut its concessioners whenever and wherever it chooses to 
do so. The charge to be ``entrepreneurial,'' fed by the fee 
demo program, is encouraging Forest Service employees to free-
lance. One Forest Service field officer told a concessioner 
``we don't care what Washington says, we're going to do (fee 
demo) any way we choose.''
    The program needs more time to mature, and during that time 
it needs the oversight of Congress and the people who will be 
affected by it.
    Late in 1997, consideration was given to amending the 1988 
Appropriations Bill to provide that:

        Projects undertaken under the Recreation Fee Demonstration 
        Program shall not result in:

        (a) the modification of a current concessioner authorization 
        without willing consent of the holder of such authorization;
        (b) failure to renew, to extend, or to offer a new prospectus 
        for an existing concession authorization; or
        (c) the displacement of an authorized concessioner operation.

    We urge the adoption of that language, along with 
legislation that standardizes and codifies the forest Service 
developed-site permit system and its developed-site concessions 
policies and practices.
    Thank you for the opportunity to testify in this very 
important matter.
                                ------                                


  Statement of John Bachrach, Grand Canyon Private Boaters Association

    Mr. Chairman, thank you for this opportunity to share our 
thoughts on the Fee Demonstration/Cost Recovery program 
implemented in 1997. We recognize the importance of this issue 
to the huge population of people who cherish and seek to access 
our public lands.
    My name is John Bachrach and I have come from Flagstaff, 
Arizona to represent the Grand Canyon Private Boaters 
Association. The boating public is one component of the outdoor 
community. We are a 501C3 non-profit corporation that was 
formed in 1996 to give a voice to private/non-commercial or 
self-guided river running population who, until now have had no 
voice in NPS policy matters that affect the boating community.
    Briefly I will outline the fees a person must pay in order 
to conduct or participate in a private, self-guided river trip 
on the Colorado River. First, in order to be accepted onto the 
Grand Canyon National Park's wait list and secure a position on 
that list you have to pay $100. Then to remain on this list 
until your turn has come up you will have to pay $25 per year. 
The current wait is eighteen years so you will pay a total of 
$450. When you are able to launch you will pay another $200 for 
that privilege. You, and each participant in your trip will 
then pay $10 for entry into the park, additionally each of you 
will be assessed $4 per night for every night you spend in the 
park.
    The current structure was implemented after the December 
1996 Fee Demonstration and Cost Recovery Programs were 
authorized by Congress. River running fees were raised 1200 
percent with no public input.
    The concept of paying fees at Grand Canyon National Park to 
recreate is not new to non-commercial river runners, however 
the new fee program at Grand Canyon National Park is 
inconsistent with other recreation and use fees on public 
lands. Before the Grand Canyon Private Boaters Association 
could support continued application or further expansion and 
implementation of the fee demonstration program, we would need 
to be assured that the program meets several important 
criteria. They are as follows:

        (1) Fees must be applied equitably and fairly to all persons, 
        businesses and corporate entities engaged in similar activities 
        on America's public lands
        (2) Fees must not be used as a tool to limit access to Americas 
        public lands or waterways
        (3) Fees must be consistent in both their assessment and 
        administration
    As a group we are very concerned that the fee demonstration 
program does not currently pass any of these fairness tests.

(1) In the case of Grand Canyon river running, fees are not 
presently applied fairly to all users engaged in similar 
activities.

    Most of our members, and private boaters that we have 
surveyed have no objection to paying their fair share of the 
parks operating costs, but in contrast to the collected non-
commercial fees, fees paid by commercial outfitters are not 
used to recover the NPS' management expenses. Outfitters pay 
franchise fees, and in the case of the Grand Canyon, river 
outfitters pay into the Colorado River Fund. Neither of these 
fees are used to offset river operations costs. Consequently, 
outfitted patrons pay no fees directly to the park, thereby 
being insulated from the increased awareness generated by 
direct contact with park staff and park needs.
    Policy should be crafted that brings to all users greater 
awareness of the costs involved with our public lands 
operations and would help instill a sense of participation, 
ownership and preservation among all users. Making sure 
commercial patrons paid the same fees for the same kinds of 
uses as the self-guided could help to raise awareness and would 
be fair.

(2) The imposition of fees apparently has been used as a tool 
to limit access for the private boater in the Grand Canyon.

    The Department of Interior's press releases assured the 
public that they would be involved in development of the fee 
demonstration program process, but, as far as the Grand Canyon 
is concerned, not one public hearing was conducted before the 
announcement and implementation of the new fee structure.
    The sudden and enormous fee increase to the boating public 
by surprise and resulted in slowing the growth rate of the 
parks wait list by 30 percent. In 1998, for the first time in 
the history of Colorado river running, the total number of 
hopefuls on the wait list declined by more than 1000 people out 
of 6000 did not renew their names on the waiting list. If the 
point of raising the price was to discourage self-guided use of 
the canyon, then the fee demo program has been a big success. 
The long wait coupled with the high fees has nurtured the 
feeling amongst the river community that the annual fee is 
actually a penalty meant to discourage them from future 
participation.
    Current and former NPS employees at Grand Canyon stated 
they felt fee demonstration charges were being used to curb the 
growth of the Park's private boating wait list, and that park 
staff calculated an attrition rate of up to 30 percent for the 
non-commercial boating wait list.

(3) The current fee demonstration program is inconsistent and 
unfair when compared with other fee programs imposed upon 
public lands.

    Comparing the use of public lands by cows to humans would 
seem ridiculous, but everyone of us living in the west knows 
from simple observation that cows do far more damage to public 
lands than do humans. Over grazing, by itself causes more 
damage to the resources in question, than wilderness use by 
humans. And let's not forget the cows trampling of 
archeological sites. Boaters and hikers presently pay $4 per 
night for every night they spend in the Grand Canyon, contrast 
that to the cost of grazing a cow for a year on public lands. 
If grazing were to be assessed at the same rate people are, it 
would cost $1460 to graze a cow for a year. Presently it costs 
less than $10 for a cow to spend a year in the wilderness. 
Hikers and boaters would be better off if they were treated 
equally to cows!
    This comparison looks even more extreme when fitted into 
the larger picture that includes annual fees for mining, 
logging and other resource consuming activities that take place 
on public lands.
    Additionally we are concerned with the classification of 
river running at GCNP as a ``special use,'' and the precedent 
that ``special use classification'' may set for other low 
impact, human-powered activities on public lands.
    Because GCNP has classified non-commercial river running as 
a ``special park use'' the park attempts to recover 100 percent 
of the costs of managing this use, in contrast to other park 
activities which receive almost all their funding from the 
parks general funds. ``Special park uses'' include activities 
that are outside of the normal range of activities in a park, 
for example holding a wedding ceremony, or filming a movie. 
Historically speaking, the first use of what eventually became 
GCNP began with river running and a character named John Wesley 
Powell. A river trip on the Colorado is a special experience, 
for sure, but, river running is definitely not outside the 
``normal range of activities'' in the park, it is most 
definitely not a special use.
    The Grand Canyon Private Boaters Association would like to 
encourage the distinguished members of this Committee and 
Congress to reexamine Federal funding policies that make it 
necessary for our National Park system to resort to drastic and 
sudden measures like the Cost Recovery/Fee Demonstration 
program imposed upon non-commercial boaters and hikers at GCNP 
in order to survive and continue to provide American's and our 
visitors from all over the world access to these natural 
treasures.
    In closing before private boaters can support the fee 
demonstration program, we need to be sure that a criteria for 
fairness is in place, we once again submit the following as 
guidelines:

        (1) Fees must be applied fairly to all users engaged in similar 
        activities.
        (2) Fees must not be used as a tool to limit access.
        (3) Administration of fees must be consistently assessed across 
        all resource users.
    We sincerely thank Rep. Hansen's office for this 
opportunity present our perspective and we are sure you will 
give our thoughts consideration.
                                ------                                


 Statement of Hon. Robert F. (Bob) Smith, a Representative in Congress 
                        from the State of Oregon

Mr. Chairman:
    The Endangered Species Act is the most powerful law in the 
country today. Its impact on private property, economic 
production, and our standard of living is unprecedented; 
because of its power, the enforcement of this law must be 
carefully scrutinized. I commend you on your decision to hold 
this important hearing.
    The total impact of the implementation of the Endangered 
Species Act is sometimes difficult to ascertain. We do know, 
however, that it has led to a greater reliance on imported wood 
products, higher energy costs, restrictions on the use of our 
nation's waterways, and more rigid regulations on the use of 
private land. Ultimately, my biggest concern about the Act is 
the emotional burden it places on hard-working farmers who have 
been forced to deal with a question fundamental to their very 
existence: will they have enough water to grow their crops and 
provide for their families?
    This is a critical aspect of the law that is too often 
overlooked. As Federal agencies focus on the rigid regulations 
written to implement the Act, they often lose sight of the fact 
that we are placing people's livelihoods at stake over a 
biologist's judgment. This is an awesome responsibility. Do we 
cut off water to a farmer and ruin his crops because one 
biologist believes that a lake ought to have six additional 
inches of water in it? Or for an additional 50 cubic feet per 
second of flow in a river? If such a decision is made, Federal 
agencies bear the burden of proof. Solid scientific evidence 
must be driving these issues; too often it does not.
    The listing of a species must contain two key components. 
First, we ought to have rigid standards placed on the 
scientific evidence being used to support the listing. The data 
should be collected using commonly-held scientific practices, 
peer reviewed by a broad array of experts in the field, and 
closely scrutinized by agencies and affected interests before 
being adopted. If the Federal agencies rush to judgment under 
the threat of a lawsuit, the burden of proof to delist then 
falls on landowners. This is wrong. It should be the agencies' 
burden to prove that a species merits listing, not a 
landowners' burden to prove it does not. Second, there must be 
a comprehensive plan adopted that specifies realistic numerical 
targets for species recovery. Without such a common 
understanding of the goals, how can landowners participate in 
the species recovery? If they are forced to comply with an 
ever-expanding list of Federal requirements and shifting 
standards, the Federal Government will lose the most effective 
partner they have in the effort to save legitimately threatened 
species.
    When the Federal Government's efforts degenerate into 
incrementalism and loosely defined goals, the recovery of 
species will never be successful. If, however, we can adopt a 
common understanding of the key issues that lay before us--
principally, the adherence to strictly scrutinized and peer 
reviewed science, and a detailed recovery plan--we can make 
progress. The need to provide more stability to the victims of 
misguided agency decisions requirethat we act to make this law 
better. I look forward to working with my colleagues in the 
Congress to achieve this goal.
    Mr. Chairman, thank you again for calling this very 
important hearing, and I look forward to discussing this matter 
in greater detail with our witnesses.


[GRAPHIC] [TIFF OMITTED] T47404.001

[GRAPHIC] [TIFF OMITTED] T47404.002

[GRAPHIC] [TIFF OMITTED] T47404.003

[GRAPHIC] [TIFF OMITTED] T47404.004

[GRAPHIC] [TIFF OMITTED] T47404.005

[GRAPHIC] [TIFF OMITTED] T47404.006

[GRAPHIC] [TIFF OMITTED] T47404.007

[GRAPHIC] [TIFF OMITTED] T47404.008

[GRAPHIC] [TIFF OMITTED] T47404.009

[GRAPHIC] [TIFF OMITTED] T47404.010

[GRAPHIC] [TIFF OMITTED] T47404.011

[GRAPHIC] [TIFF OMITTED] T47404.012

[GRAPHIC] [TIFF OMITTED] T47404.013

[GRAPHIC] [TIFF OMITTED] T47404.014

[GRAPHIC] [TIFF OMITTED] T47404.015

[GRAPHIC] [TIFF OMITTED] T47404.016

[GRAPHIC] [TIFF OMITTED] T47404.017

[GRAPHIC] [TIFF OMITTED] T47404.018

[GRAPHIC] [TIFF OMITTED] T47404.019

[GRAPHIC] [TIFF OMITTED] T47404.020

[GRAPHIC] [TIFF OMITTED] T47404.021

[GRAPHIC] [TIFF OMITTED] T47404.022

[GRAPHIC] [TIFF OMITTED] T47404.023

[GRAPHIC] [TIFF OMITTED] T47404.024

[GRAPHIC] [TIFF OMITTED] T47404.025

[GRAPHIC] [TIFF OMITTED] T47404.026

[GRAPHIC] [TIFF OMITTED] T47404.027

[GRAPHIC] [TIFF OMITTED] T47404.028

[GRAPHIC] [TIFF OMITTED] T47404.029

[GRAPHIC] [TIFF OMITTED] T47404.030

[GRAPHIC] [TIFF OMITTED] T47404.031

[GRAPHIC] [TIFF OMITTED] T47404.032

[GRAPHIC] [TIFF OMITTED] T47404.033

[GRAPHIC] [TIFF OMITTED] T47404.034

[GRAPHIC] [TIFF OMITTED] T47404.035

[GRAPHIC] [TIFF OMITTED] T47404.036

[GRAPHIC] [TIFF OMITTED] T47404.037

[GRAPHIC] [TIFF OMITTED] T47404.038

[GRAPHIC] [TIFF OMITTED] T47404.039

[GRAPHIC] [TIFF OMITTED] T47404.040

[GRAPHIC] [TIFF OMITTED] T47404.041

[GRAPHIC] [TIFF OMITTED] T47404.042

[GRAPHIC] [TIFF OMITTED] T47404.043

[GRAPHIC] [TIFF OMITTED] T47404.044

[GRAPHIC] [TIFF OMITTED] T47404.045

[GRAPHIC] [TIFF OMITTED] T47404.046

[GRAPHIC] [TIFF OMITTED] T47404.047

[GRAPHIC] [TIFF OMITTED] T47404.048

[GRAPHIC] [TIFF OMITTED] T47404.049

[GRAPHIC] [TIFF OMITTED] T47404.050

[GRAPHIC] [TIFF OMITTED] T47404.051

[GRAPHIC] [TIFF OMITTED] T47404.052

[GRAPHIC] [TIFF OMITTED] T47404.053

[GRAPHIC] [TIFF OMITTED] T47404.054

[GRAPHIC] [TIFF OMITTED] T47404.055

[GRAPHIC] [TIFF OMITTED] T47404.056

[GRAPHIC] [TIFF OMITTED] T47404.057

[GRAPHIC] [TIFF OMITTED] T47404.058

[GRAPHIC] [TIFF OMITTED] T47404.059

[GRAPHIC] [TIFF OMITTED] T47404.060

[GRAPHIC] [TIFF OMITTED] T47404.061

[GRAPHIC] [TIFF OMITTED] T47404.062

[GRAPHIC] [TIFF OMITTED] T47404.063

[GRAPHIC] [TIFF OMITTED] T47404.064

[GRAPHIC] [TIFF OMITTED] T47404.065

[GRAPHIC] [TIFF OMITTED] T47404.066

[GRAPHIC] [TIFF OMITTED] T47404.067

[GRAPHIC] [TIFF OMITTED] T47404.068

[GRAPHIC] [TIFF OMITTED] T47404.069

[GRAPHIC] [TIFF OMITTED] T47404.070

[GRAPHIC] [TIFF OMITTED] T47404.071

[GRAPHIC] [TIFF OMITTED] T47404.072

[GRAPHIC] [TIFF OMITTED] T47404.073

[GRAPHIC] [TIFF OMITTED] T47404.074

[GRAPHIC] [TIFF OMITTED] T47404.075

[GRAPHIC] [TIFF OMITTED] T47404.076

[GRAPHIC] [TIFF OMITTED] T47404.077

[GRAPHIC] [TIFF OMITTED] T47404.078

[GRAPHIC] [TIFF OMITTED] T47404.079

[GRAPHIC] [TIFF OMITTED] T47404.080

[GRAPHIC] [TIFF OMITTED] T47404.081

[GRAPHIC] [TIFF OMITTED] T47404.082

[GRAPHIC] [TIFF OMITTED] T47404.083

[GRAPHIC] [TIFF OMITTED] T47404.084

[GRAPHIC] [TIFF OMITTED] T47404.085

[GRAPHIC] [TIFF OMITTED] T47404.086

[GRAPHIC] [TIFF OMITTED] T47404.087

[GRAPHIC] [TIFF OMITTED] T47404.088

[GRAPHIC] [TIFF OMITTED] T47404.089

[GRAPHIC] [TIFF OMITTED] T47404.090

[GRAPHIC] [TIFF OMITTED] T47404.091

[GRAPHIC] [TIFF OMITTED] T47404.092

[GRAPHIC] [TIFF OMITTED] T47404.093

[GRAPHIC] [TIFF OMITTED] T47404.094

[GRAPHIC] [TIFF OMITTED] T47404.095

[GRAPHIC] [TIFF OMITTED] T47404.096

[GRAPHIC] [TIFF OMITTED] T47404.097

[GRAPHIC] [TIFF OMITTED] T47404.098

[GRAPHIC] [TIFF OMITTED] T47404.099


</pre></body></html>
